No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOINT APPENDIX - VOLUME III OF III
Catherine M.A. Carroll
Dana Nessel
Wilmer Cutler Pickering
Michigan Attorney General
Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
Tasha Bahal
Counsel of Record
Reuven Dashevsky
Gary B. Howell-Walton
Wilmer Cutler Pickering
Hale and Dorr LLP
60 State Street
Boston, MA 02109
Tasha.Bahal@
wilmerhale.com
(617) 526-6000

Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, MI 48909
HammoudF1@
michigan.gov
(517) 335-7628
Attorneys for Petitioner

Attorneys for Respondent
Petition for Writ of Certiorari Filed Dec. 14, 2020
Certiorari Granted April 5, 2021

i
TABLE OF CONTENTS
VOLUME I OF III
Relevant Docket Entries
Relevant Docket Entries from the
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
1–2
Relevant Docket Entries from the
Michigan Court of Appeals
Docket No. 287767

2

Relevant Docket Entries from the
Michigan Supreme Court
Docket No. 141832

2

Relevant Docket Entries from the
Michigan Court of Appeals
Docket No. 306868

2

Relevant Docket Entries from the
Michigan Supreme Court
Docket No. 146652

2

Relevant Docket Entries from the
United States District Court
for the Western District of Michigan
Docket No. 1:14-cv-01012-JTN-SJB

3

Relevant Docket Entries from the
United States Court of Appeals
for the Sixth Circuit
Docket No. 17-2267

3–4

ii
Transcripts and Orders in Chronological Order
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume I
Pages 19 to 24, 113 to 114
July 8, 2008
5–14
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume II
Pages 356, 394 to 429; 445 to 491
July 9, 2008
15–111
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume III
Pages 518 to 532; 536 to 559;
627 to 670; 712 to 737
July 10, 2008
112–248
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume IV
Pages 763 to 845
July 11, 2008
249–344
VOLUME II OF III
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume V
Pages 857 to 931; 960 to 988
July 15, 2008
345–469

iii
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume VI
Pages 1001 to 1153
July 16, 2008
470–657
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Jury Trial – Volume VII
Pages 1193 to 1196, 1199, 1224 to 1225
July 17, 2008
658–666
VOLUME III OF III
Michigan Court of Appeals
Case No. 287767
Order (Per Curiam)
Dated August 5, 2010

667–680

Michigan Court of Appeals
Case No. 287767
Order (Gleicher, J. (concurring))
Dated August 5, 2010

681–686

Michigan Supreme Court
Case No. 141832
Order
Dated March 9, 2011

687–688

Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Evidentiary Hearing – Volume I
All pages (1-125)
June 24, 2011
689–833

iv
Ninth Circuit Court for the County of Kalamazoo
Docket No. C07-0165FC
Evidentiary Hearing – Volume II of II
All pages (1-22)
July 29, 2011
834–859
Ninth Circuit Court of Kalamazoo
Docket No. C07-0165FC
Opinion after Remand
Dated October 20, 2011

860–863

The following opinions and order have been omitted
in printing this Joint Appendix because they appear
on the following pages in the appendix to the Petition
for a Writ of Certiorari:
Michigan Court of Appeals
Case No. 306868
Opinion
Issued December 13, 2012 ............................ 95a–100a
Michigan Supreme Court
Case No. 146652
Order
Issued July 3, 2013 ......................................... 93a–94a
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Report and Recommendation
Issued November 7, 2016 ............................... 78a–92a

v
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Opinion and Order
Issued September 26, 2017 ............................. 71a–76a
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Judgment
Issued September 26, 2017 ..................................... 77a
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267
Opinion
Issued June 30, 2020 ........................................ 1a–69a
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267
Judgment
Issued June 30, 2020 .............................................. 70a
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267,
Order Denying Petition for Rehearing En Banc
Issued September 15, 2020 ......................... 101a–137a

667
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellee,
v

UNPUBLISHED
August 5, 2010
No. 287767
Kalamazoo Circuit Court
LC No. 2007-000165-FC

ERVINE LEE DAVENPORT,
Defendant-Appellant.
Before: STEPHENS, P.J., and GLEICHER and M. J.
KELLY, JJ.
PER CURIAM.
Defendant appeals as of right his jury trial conviction of first-degree premeditated murder. MCL
750.316. The trial court sentenced defendant to life in
prison without the possibility of parole. Because we
conclude that there were no errors warranting relief,
we affirm.
Defendant first contends that he was denied his
due process rights when the trial court required him
to wear shackles during the trial. Although defendant’s trial counsel requested that defendant’s right
hand be freed to enable him to write notes, defendant’s trial counsel did not otherwise object to defendant being shackled. Therefore, this issue was not

668
properly preserved before the trial court. See People v
Stimage, 202 Mich App 28, 30; 507 NW2d 778 (1993).
This Court reviews unpreserved claims of constitutional error for plain error affecting substantial
rights. People v Carines, 460 Mich 750, 764; 597 NW2d
130 (1999).
Generally, a defendant has a due process right to
be free of shackles or handcuffs during trial. People v
Dixon, 217 Mich App 400, 404; 552 NW2d 663 (1996).
However, this right is not absolute; a trial court may
order a defendant to be restrained where it “is necessary to prevent escape, injury to persons in the courtroom or to maintain order.” People v Dunn, 446 Mich
409, 425; 521 NW2d 255 (1994). Although a trial court
may order a defendant to be restrained during trial, it
is well settled that a trial court may not do so as a
matter of routine. See Deck v Missouri, 544 US 622,
627; 125 S Ct 2007; 161 L Ed2d 953 (2005) (“Trial
courts may not shackle defendants routinely, but only
if there is a particular reason to do so.”). And it is not
sufficient that a law enforcement officer has expressed
a preference for the use of restraints. People v Banks,
249 Mich App 247, 258; 642 NW2d 351 (2002). Instead, before a trial court can order a defendant to be
restrained, it must make specific findings—on the record and supported by record evidence—that justify restraining the particular defendant. Deck, 544 US at
632 (noting that trial courts must take into account
the circumstances of the particular case before ordering a defendant to be restrained). In this case, the trial
court failed to make any findings on the record—let
alone findings that were supported by record evidence
that warranted such an extreme precaution.

669
Therefore, the trial court plainly erred. See Dunn, 446
Mich at 425.
Although it was error for the trial court to order
defendant to be restrained without making the requisite findings, in order to warrant relief, defendant
must still show that this error prejudiced his trial.
People v Horn, 279 Mich App 31, 36; 755 NW2d 212
(2008). Typically, a defendant will show prejudice by
demonstrating that his restraints were visible to the
jury. Id. at 36-37; see also Deck, 544 US at 635 (stating
that shackling is inherently prejudicial and, for that
reason, a defendant need not demonstrate actual prejudice in order to warrant relief where the defendant’s
restraints were visible to the jury).
Here, the trial court took precautions to ensure
that the jury did not see the restraints: the trial court
had a curtain placed around the defense table, instructed the parties on the procedures for standing,
and had the shackles removed before defendant
walked to the witness stand. Despite these procedures, defendant argues that the jury must have seen
that his left hand was shackled on the basis of a video
from the trial that purportedly shows that his wrist
shackle was visible. The video does show a visible cuff
around defendant’s wrist. However, it is also clear
that the video was recorded from a height. And there
is no record evidence that the video accurately portrays the view from the position of the jurors. Because
the video does not appear to portray the view from the
jury box, we cannot conclude that the jurors actually
saw the restraint on defendant’s left wrist. Defendant
has not shown that his restraints were visible to the

670
jury and, for that reason, has not met his burden of
showing prejudice. Horn, 279 Mich App at 37.
Even if we were to conclude that defendant
demonstrated that his restraints were visible to the
jury, this would not by itself warrant relief. Where a
trial court orders a defendant to be visibly shackled
without adequate justification, the error is still subject to harmless error review. Deck, 544 US 635. In
order to be considered harmless, the prosecution must
normally “prove ‘beyond a reasonable doubt that the
[shackling] error complained of did not contribute to
the verdict obtained.’” Id., quoting Chapman v California, 386 US 18, 24; 87 S Ct 824; 17 L Ed 2d 705
(1967); see also Lakin v Stine, 431 F3d 959, 966 (CA
6, 2005) (applying the harmless beyond a reasonable
doubt standard to a shackling error and concluding
that the error did not warrant relief because the error
was harmless in light of the overwhelming evidence
against the defendant). However, where—as is the
case here—the constitutional error is unpreserved,
the defendant bears the burden of proving that the
shackling error prejudiced his trial. Carines, 460 Mich
at 764; see also United States v Miller, 531 F3d 340,
346 (CA 6, 2008) (examining defendant’s unpreserved
claim that he was improperly restrained for plain error).
After carefully reviewing the evidence adduced at
trial in light of the shackling error, we conclude that
defendant has not demonstrated prejudice. Defendant’s right hand was free throughout the trial and the
jury saw defendant walk to the witness stand without
restraints. Moreover, the trial court declined the prosecutor’s request to have defendant shackled again

671
after he testified. Thus, to the extent that the jury
might have seen defendant’s restraints, the exposure
was quite limited. Given the substantial evidence of
defendant’s guilt, we conclude that any error in shackling defendant was harmless. See Carines, 460 Mich
at 763-764. For the same reason, we cannot conclude
that defendant’s trial counsel’s failure to properly object to defendant’s shackles constitutes the ineffective
assistance of counsel warranting relief. Defendant has
failed to demonstrate that any deficiency in this regard prejudiced his trial. People v Carbin, 463 Mich
590, 600; 623 NW2d 884 (2001) (“To demonstrate prejudice, the defendant must show the existence of a reasonable probability that, but for counsel’s error, the
result of the proceeding would have been different.”).
Next, defendant contends that he was denied his
constitutional right to a speedy trial. This Court reviews a defendant’s claim of deprivation of speedy
trial rights by balancing factors set forth in Barker v
Wingo, 407 US 514; 92 S Ct 2182; 33 L Ed 2d 101
(1972). See People v Williams, 475 Mich 245, 261; 716
NW2d 208 (2006). The following four factors are relevant to determining whether a defendant has been denied the right to a speedy trial: “(1) the length of delay,
(2) the reason for delay, (3) the defendant’s assertion
of the right, and (4) the prejudice to the defendant.”
Id. Where a delay is less than 18 months, the defendant bears the burden of showing prejudice. Id. at 262.
In this case, defendant agrees that the delay was
approximately 16 months and that he has the burden
to show prejudice. Id. In examining the reasons for the
delay, we note that many delays were the result of
scheduling and docket issues, which weigh against the

672
prosecutor but are given a neutral tint. Id. at 263. The
remainder of delays—slightly more than six months—
are attributable to defendant. On this record, we conclude that the reasons for the delay and the length of
the delay do not weigh in favor of concluding that defendant was denied his right to a speedy trial. Id. We
also do not agree that defendant suffered prejudice as
a result of the delays.
Defendant argues that he was prejudiced by this
delay given that “a critical defense witness” died. Defendant states that the witness would have testified
that, immediately following the victim’s death, she
treated the wounds that defendant received when the
victim attacked him with a box cutter. On appeal, defendant does not provide details regarding this testimony and how it might have affected his trial. Further, defendant failed to mention the witness during
his interview with police and failed to produce the
jacket he claimed was cut when the victim stabbed
him. Police officers also found the box cutter the victim allegedly used inside a tool bag in the trunk of the
vehicle defendant drove and there was no evidence of
blood on it. Finally, the medical examiner testified
that the victim’s injuries were not consistent with defendant’s testimony. Given the totality of the circumstances, we conclude that defendant was not deprived
of his right to a speedy trial. See Williams, 475 Mich
at 261-265.
Next, defendant contends that there was insufficient evidence to show that he acted with premeditation and deliberation. This Court reviews a challenge
to the sufficiency of the evidence de novo. People v
Lueth, 253 Mich App 670, 680; 660 NW2d 322 (2002).

673
In determining whether the prosecution has presented sufficient evidence to sustain a conviction, we
must examine the evidence presented at trial in a
light most favorable to the prosecution and consider
whether there was sufficient evidence to justify a rational trier of fact in finding the elements of the crime
beyond a reasonable doubt. People v Johnson, 460
Mich 720, 722-723; 597 NW2d 73 (1999).
In order to prove premeditation, the prosecution
must present evidence that there was some time span
between the defendant’s initial homicidal intent and
the defendant’s act that caused the victim’s death.
People v Gonzalez, 468 Mich 636, 641; 664 NW2d 159
(2003) (quotations omitted). “The interval between the
initial thought and ultimate action should be long
enough to afford a reasonable person time to take a
‘second look.’” Id. (citations omitted). Circumstantial
evidence may constitute satisfactory proof of premeditation and deliberation. See People v Unger, 278 Mich
App 210, 223; 749 NW2d 272 (2008).
In this case, there was sufficient evidence to allow
a rational trier of fact to conclude beyond a reasonable
doubt that defendant acted with deliberation and premeditation. The medical examiner testified that the
victim’s injuries were consistent with pressure being
applied to both sides of her throat and that it takes
approximately 30 seconds to choke a person to unconsciousness and another four to five minutes to strangle a person to death. A rational juror could conclude
that defendant had time to take a second look at his
actions during the time between the victim’s unconsciousness and death. Gonzalez, 468 Mich at 641 (noting that “[m]anual strangulation can be used as

674
evidence that a defendant had an opportunity to take
a ‘second look.’”). Thus, there was sufficient evidence
from which a reasonable jury could have found the
requisite premeditation beyond a reasonable doubt.
Id.
Next, defendant argues that the trial court abused
its discretion when it denied in part his motion to suppress incriminating statements he made during a custodial interrogation. Specifically, defendant argues
that he was not properly advised of his rights and that
the police officers should have ceased questioning him
after he requested an attorney. Based on these violations, he contends that the trial court should have
suppressed all his statements rather than just a portion of the statements.
This Court reviews de novo a trial court’s decision
to suppress evidence. People v Akins, 259 Mich App
545, 563; 675 NW2d 863 (2003). We review a trial
court’s factual findings for clear error. Id. Review of a
trial court’s decision concerning whether a statement
was involuntary requires this Court to conduct an independent analysis of the record to determine
whether the trial court’s ruling was clearly erroneous.
People v Cipriano, 431 Mich 315, 339; 429 NW2d 781
(1988). This Court gives “deference to the trial court’s
findings, especially where the demeanor of the witnesses is important, as where credibility is a major
factor.” Id. (quotations omitted).
After defendant’s arrest, several police officers interrogated defendant during a span of more than eight
hours. Before the interrogation, a police officer advised defendant of his right to remain silent and have
an attorney. A short time into the interview,

675
defendant stated: “[i]f I need to talk to a lawyer about
this to find out what—what I need to do, then that’s
what I need to do. But I am not just going to—it’s just
crazy.” The interrogating officer, Detective Brian
Beauchamp, responded by stating “right” and the interrogation continued for an extensive amount of time
wherein defendant admitted to helping dispose of the
victim’s body, but denied killing the victim. Beauchamp transcribed defendant’s version of events and
asked defendant to sign the statement. Defendant refused and stated: “Okay. I can’t talk to a lawyer first
before I sign this stuff, man?” and “I need some legal
advice.” Beauchamp then terminated the interrogation and left the interview room. Thereafter, Captain
Jim Mallery, entered the interview room and informed defendant he would return to the Kalamazoo
County Jail. Mallery left and returned with a cigarette lighter that defendant had been promised, and
as Mallery turned to leave the room, defendant stated
“[s]o what am I getting charged with?” Mallery again
advised defendant of his rights and interrogated defendant for several more hours, during which defendant confessed to killing the victim but stated that he
did so in self-defense.
Before trial, defendant moved to suppress the
statements made to Beauchamp and Mallery, arguing
that he was denied his right to counsel and that his
statements were involuntary. The trial court granted
in part and denied in part defendant’s motion to suppress. The trial court found that defendant did not
make an unequivocal request for an attorney when he
stated “[i]f I need to talk to a lawyer … then that’s
what I need to do”, however, the court found that defendant invoked his right to counsel when he refused

676
Beauchamp’s request to sign his first statement. The
trial court suppressed the statements from that point
until defendant reinitiated contact with Mallery. The
trial court also found that defendant’s statements
were knowingly and voluntarily made.
Police must inform a suspect in custody that he
has the right to remain silent and the right to have an
attorney present before being questioned. Miranda v
Arizona, 384 US 436, 479; 86 S Ct 1602; 16 L Ed 2d
694 (1966). To invoke the right to counsel, an accused
must make a statement that can, “reasonably be construed to be an expression of a desire for the assistance of an attorney.” Davis v United States, 512 US
452, 459; 114 S Ct 2350; 129 L Ed 2d 362 (1994) (quotation omitted). An ambiguous reference to an attorney “that a reasonable officer in light of the circumstances would have understood only that the suspect
might be invoking the right to counsel,” is insufficient.
Id. Once a suspect invokes his right to counsel, police
must cease all interrogation until counsel has been
made available unless the suspect initiates further
communication. Edwards v Arizona, 451 US 477, 484485; 101 S Ct 1880; 68 L Ed 2d 378 (1981). An accused
“initiates” further communication with law enforcement when he makes a statement that evinces a “willingness and a desire for a generalized discussion
about the investigation” that could “reasonably have
been interpreted by the officer as relating generally to
the investigation.” Oregon v Bradshaw, 462 US 1039,
1045-1046; 103 S Ct 2830; 77 L Ed 2d 405 (1983).
However, statements that are merely “a necessary inquiry arising out of the incidents of the custodial relationship” do not amount to an initiation of further

677
communication with police for purposes of restarting
interrogation. Id.
The trial court did not err when it determined that
defendant did not invoke his right to counsel near the
beginning of the interrogation when he stated: “[i]f I
need to talk to a lawyer about this to find out what—
what I need to do, then that’s what I need to do. But I
am not just going to—it’s just crazy.” This statement
was not an unequivocal request for an attorney and a
reasonable officer would understand that defendant
only “might” be invoking or considering his right to
counsel. See Davis, 512 US at 461-462 (holding that
the defendant’s statement that “maybe I should talk
to a lawyer” was not an unequivocal request for counsel).
Similarly, the trial court did not err when it concluded that defendant reinitiated contact with Mallery when he asked “[s]o what am I being charged
with?” In this case, Mallery entered the interview
room and informed defendant that he would be transported back to jail and asked if defendant wanted a
“light.” These statements did not amount to “initiation” of further communication with defendant for
purposes of Miranda because they simply related to
the routine incidents of the custodial relationship and
did not relate to the criminal investigation. See Bradshaw, 462 US at 1045. After Mallery lit defendant’s
cigarette and turned to leave the room, defendant
asked him “[s]o what am I being charged with.” This
statement evinced a “willingness and a desire for a
generalized discussion about the investigation” that
Mallery could “reasonably have … interpreted … as
relating generally to the investigation. Id. at 1046; see

678
also id. at 1041-1044 (stating that the question “[w]ell,
what is going to happen to me now?” initiated contact
with police for purposes of Miranda). After defendant
initiated contact, Mallery properly advised defendant
of his rights; defendant’s argument to the contrary
lacks merit.
In addition, the trial court did not err when it determined that defendant’s statement to the police was
voluntary. Cipriano, 431 Mich at 339. An involuntary
statement made by a defendant introduced in a criminal trial for any purpose violates that defendant’s due
process rights. Id. at 331. The determination whether
a statement was voluntary “should be whether, considering the totality of all the surrounding circumstances, the confession is ‘the product of an essentially
free and unconstrained choice by its maker’ or
whether the accused’s ‘will has been overborne and his
capacity for self determination critically impaired.’”
Id. at 333-334, quoting Culombe v Connecticut, 367
US 568, 602; 81 S Ct 1860; 6 L Ed 2d 1037 (1961). In
making this determination a trial court should consider:
the age of the accused; his lack of education or
his intelligence level; the extent of his previous experience with the police; the repeated
and prolonged nature of the questioning; the
length of the detention of the accused before
he gave the statement in question; the lack of
any advice to the accused of his constitutional
rights; whether there was an unnecessary delay in bringing him before a magistrate before
he gave the confession; whether the accused
was injured, intoxicated or drugged, or in ill

679
health when he gave the statement; whether
the accused was deprived of food, sleep, or
medical attention; whether the accused was
physically abused; and whether the suspect
was threatened with abuse. [Cipriano, 431
Mich at 334.]
The presence or absence of one factor is not dispositive. Id. Instead, whether a statement is voluntary depends on the totality of the circumstances surrounding the statement. Id.
In this case, the record indicates that, at the time
of the interrogation, defendant was a 41- year-old man
with an 11th grade education who had numerous prior
contacts with police. While the interrogation lasted
nearly nine hours, our Supreme Court has held that a
statement given in similar circumstances was voluntary. See People v Sexton (After Remand), 461 Mich
746, 748- 750, 754; 609 NW2d 822 (2000). And, although defendant was held for several days before his
interrogation, he was held on other charges, and delay
alone is insufficient to find defendant was coerced.
Cipriano, 431 Mich at 339. Both Beauchamp and Mallery properly advised defendant of his constitutional
rights and defendant waived those rights and agreed
to participate in the interview. Beauchamp testified
that defendant was given access to a restroom. And,
the record supports that defendant was provided cigarettes and something to drink. Beauchamp and Mallery also testified that they took breaks during the interrogation. Defendant was not under the influence of
drugs or any other intoxicants, he did not appear
tired, and did not ask to stop the interrogation. He
also did not indicate that he could not continue or that

680
he was uncomfortable or sleepy. Defendant did not require immediate medical care and he was not threatened or promised anything. On this record, the trial
court did not clearly err in determining that defendant’s statements were voluntarily made. Akins, 259
Mich App at 563.
Finally, defendant contends that he was denied
the effective assistance of trial counsel. Defendant
does not provide any analysis as to how his counsel
was ineffective and he cites nothing in the record to
support his argument. Therefore, he has abandoned
this claim of error on appeal. See People v Kevorkian,
248 Mich App 373, 388-389; 639 NW2d 291 (2001).
There were no errors warranting relief.
Affirmed.
/s/ Cynthia Diane Stephens
/s/ Michael J. Kelly

681
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellee,
v

UNPUBLISHED
August 5, 2010
No. 287767
Kalamazoo Circuit Court
LC No. 2007-000165-FC

ERVINE LEE DAVENPORT,
Defendant-Appellant.
Before: STEPHENS, P.J., and GLEICHER and M. J.
KELLY, JJ.
GLEICHER, J. (concurring).
I concur in the result reached by the majority, but
write separately to elaborate my view of the manner
in which the unfounded shackling of defendant during
trial, and defense counsel’s failure to object to the
shackling, qualify as harmless errors.
Explicitly clear due process principles prohibit
routine shackling of criminal defendants. “[T]he Fifth
and Fourteenth Amendments prohibit the use of physical restraints visible to the jury absent a trial court
determination, in the exercise of its discretion, that
they are justified by a state interest specific to a particular trial.” Deck v Missouri, 544 US 622, 629; 125 S
Ct 2007; 161 L Ed 2d 953 (2005). More than a decade

682
before the United States Supreme Court decided Deck,
the Michigan Supreme Court declared, “The rule is
well-established in this and other jurisdictions that a
defendant may be shackled only on a finding supported by record evidence that this is necessary to prevent escape, injury to persons in the courtroom or to
maintain order.” People v Dunn, 446 Mich 409, 425;
521 NW2d 255 (1994) (footnote omitted).
The record in this case reveals that the trial court
shackled defendant pursuant to a “policy.” On the first
day of trial, outside the jury’s presence, defense counsel stated:
The other thing is I understand the Court’s
policy regarding the shackles. However, it’s
important that [defendant] and I have an opportunity to communicate back and forth, and
generally we use a... method where he would
write notes back and forth. I would ask that
any handcuffs during trial be removed prior to
the jury entering, giving us an opportunity to
write back and forth freely.
No record findings justified shackling defendant. Neither the trial court nor counsel explained the basis for
the shackling policy or the particular reasons supporting defendant’s shackling in this case.
The trial court’s shackling policy placed in serious
jeopardy defendant’s right to a fair trial. The United
States Supreme Court explained in Deck that visible
shackling without cause impugns the integrity of a
criminal trial, because it “undermines the presumption of innocence and the related fairness of the factfinding process,” diminishes the accused’s right to

683
counsel, and “affronts … the dignity and decorum of
judicial proceedings that the judge is seeking to uphold.” Id. at 630-631 (internal quotation omitted).
While no reasonable excuse exists for defense counsel’s failure to object to the shackling policy, I believe
that the trial court bears equal responsibility for safeguarding the presumption of innocence and the integrity of a criminal trial. Indisputably, the trial court’s
decision to shackle defendant constituted plain error.
Defense counsel’s neglect to object to the shackling contributed to the critical gap in the record concerning the visibility of the shackling and abetted the
trial court’s denial of defendant’s due process rights. 1
“[I]t has long been recognized that the right to counsel
is the right to the effective assistance of counsel.”
United States v Cronic, 466 US 648, 654; 104 S Ct
2039; 80 L Ed 2d 657 (1984), quoting McMann v Richardson, 397 US 759, 777 n 14; 90 S Ct 1441; 25 L Ed
2d 763 (1970). In Strickland v Washington, 466 US
668, 687; 104 S Ct 2052; 80 L Ed 2d 674 (1984), the
United States Supreme Court held that a convicted
defendant’s claim of ineffective assistance of counsel
includes two components: “First, the defendant must
1

Defendant presented to this Court a video record of the trial.
As the majority acknowledges, defendant’s wrist shackle is
clearly visible on the video. The majority observes that “there is
no record evidence that the video accurately portrays the view
from the position of the jurors.” Ante at 3. However, because defense counsel failed to object to the shackling, the record before
this Court contains no accurate information about the jury’s
sight lines. Given the record before us, it is simply impossible to
determine with any degree of reasonable certainty whether the
jurors could observe defendant’s shackled wrist. In my view, this
Court should refrain from speculation with regard to video camera angles and the location of the jury box.

684
show that counsel’s performance was deficient.... Second, the defendant must show that the deficient performance prejudiced the defense.” To establish the
first component, a defendant must show that counsel’s
performance fell below an objective standard of reasonableness under prevailing professional norms.
People v Solmonson, 261 Mich App 657, 663; 683
NW2d 761 (2004). With respect to the prejudice aspect
of the test for ineffective assistance, the defendant
must demonstrate a reasonable probability that but
for counsel’s errors, the result of the proceedings
would have differed. Id. at 663-664.
Defense counsel’s failure to effectively object to
the shackling fell below an objective standard of reasonableness. In the absence of any substantiation that
defendant posed a security risk to courtroom personnel, I can conceive of no tactical reason for defense
counsel’s lack of objection to the shackling. Counsel’s
failure to object also converted this Court’s review
from the harmless error standard, under which the
prosecution bears the burden of proving beyond a reasonable doubt that the shackling did not contribute to
the verdict, to that of plain error, under which defendant must demonstrate a reasonable probability that a
more favorable result would have obtained had the
court not shackled him. Thus, counsel’s silence in the
face of unjustified shackling affected a “double
whammy”; defendant remained shackled and he forfeited stringent appellate review of this due process
violation.
The majority concludes that “[g]iven the substantial evidence of defendant’s guilt, we conclude that
any error in shackling defendant was harmless.” Ante

685
at 4. Because the error was plain and affected defendant’s substantial rights, the proper inquiries about the
impact of the shackling become whether it (1) “affected the outcome of the lower court proceedings,”
and (2) either “resulted in the conviction of an actually
innocent defendant” or “seriously affected the fairness, integrity or public reputation of judicial proceedings.” People v Borgne, 483 Mich 178, 196-197; 768
NW2d 290, reh granted in part 485 Mich 868 (2009).
With respect to defense counsel’s ineffective assistance, this Court must determine whether, but for
counsel’s error, a reasonable probability exists that
the result of the proceedings would have differed.
Defendant claimed self-defense. He testified that
while he drove the victim home, the victim threatened
him with a box cutter and swung it into defendant’s
right arm. Defendant admitted that he grabbed the
victim and pushed her back, pinning her against the
passenger side of the vehicle, but denied that he intended to hurt her. The pathologist who performed an
autopsy on the victim rebutted defendant’s testimony
by explaining that the victim’s neck injury appeared
inconsistent “with a broad force placed across” the victim’s neck, but consistent with “choking.” Forensic
testing of the box cutter did not reveal any blood. If
visible to the jury, the shackles served to emphasize
defendant’s violent character and to rebut his claim
that he acted in self-defense. However, because the
record remains unclear as to whether any jurors saw
the shackles, and because substantial evidence supported the jury’s rejection of defendant’s self-defense
claim, he has failed to establish that the shackles affected the outcome of his trial.

686
On the basis of the same “substantial evidence of
defendant’s guilt,” the majority holds that defendant
did not satisfy the prejudice component of the Strickland test. Ante at 4. In my view, an analysis under
Strickland yields a closer result. The prosecution alleged that defendant committed a violent crime, while
defendant claimed that he protected himself from an
attack by the intoxicated victim wielding a box cutter.
As this Court observed in People v Baskin, 145 Mich
App 526, 546; 378 NW2d 535 (1985), 2 “This is a situation where actions speak louder than words. The mere
shackling of the defendant in this case impinged upon
defendant’s credibility by indicating that defendant
was not to be trusted and prejudiced his right to a fair
trial.” But the record here lacks any evidence tending
to affirmatively demonstrate that the jurors saw the
shackles. Furthermore, the pathologist’s testimony
and the physical evidence completely refuted defendant’s claim that he merely staved off the victim’s attack. Because defendant has not established a reasonable probability that, but for counsel’s errors, the result of his trial would have differed, I agree that his
conviction should stand affirmed.
/s/ Elizabeth L. Gleicher

2

Superseded by statute on other grounds as noted in People v
O’Quinn, 185 Mich App 40, 44- 45; 460 NW2d 264 (1990), overruled in People v Koonce, 466 Mich 515, 522-523; 648 NW2d 153
(2002).

687
Order
March 9, 2011
141832

Michigan Supreme Court
Lansing, Michigan
Robert P. Young, Jr.,
Chief Justice
Michael F. Cavanagh
Marilyn Kelly
Stephen J. Markman
Diane M. Hathaway
Mary Beth Kelly
Brian K. Zahra,
Justices

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v
SC: 141832
COA: 287767
Kalamazoo CC:
2007-000165-FC
ERVINE LEE DAVENPORT,
Defendant-Appellant.
_________________________________________/
On order of the Court, the application for leave to
appeal the August 5, 2010 judgment of the Court of
Appeals is considered and, pursuant to MCR
7.302(H)(1), in lieu of granting leave to appeal, we REVERSE the Court of Appeals order denying the defendant’s motion to remand for an evidentiary hearing. The defendant should have been permitted to

688
develop the record on the issue of whether his shackling during trial prejudiced his defense. See Rhoden v
Rowland, 10 F3d 1457, 1460 (CA 9, 1993). We also REVERSE the Court of Appeals determination that the
defendant did not preserve the issue of whether his
shackling during trial constituted a due process violation, because defense counsel requested that both of
defendant’s hands be unshackled to avoid the prejudice that would result if the jury saw the shackles, and
the circuit court denied her request. See Fast Air, Inc
v Knight, 235 Mich App 541, 549 (1999); trial transcript Volume I, p 113. If it is determined that the jury
saw the defendant’s shackles, the circuit court shall
determine whether the prosecution can demonstrate
beyond a reasonable doubt that the shackling error
did not contribute to the verdict against the defendant. Deck v Missouri, 544 US 622, 635; 125 S Ct 2007;
161 L Ed 2d 953 (2005). We REMAND this case to the
circuit court for further proceedings consistent with
this order. In all other respects, leave to appeal is DENIED, because we are not persuaded that the remaining questions presented should be reviewed by this
Court.
We do not retain jurisdiction.
I, Corbin R. Davis, Clerk of the Michigan Supreme
Court, certify that the foregoing is a true and complete
copy of the order entered at the direction of the Court.
March 9, 2011

Corbin R. Davis
Clerk

689
STATE OF MICHIGAN
9th JUDICIAL CIRCUIT COURT
TRIAL DIVISION
FOR THE COUNTY OF KALAMAZOO
PEOPLE OF THE STATE OF MICHIGAN,
v
Case No.:C2007-0165FC
ERVINE LEE DAVENPORT.
Defendant.
/
EVIDENTIARY HEARING - VOLUME I OF II
BEFORE THE HONORABLE
PAMELA LIGHTVOET, CIRCUIT JUDGE
Kalamazoo, Michigan – Friday, June 24, 2011
APPEARANCES:
For the People:
CHERI L. BRUINSMA P58673
227 W. MICHIGAN AVE
KALAMAZOO MI 49007
(269) 383-8900
For the Defendant:
SUSAN M. MEINBERG P34433
645 GRISWOLD ST STE 3300
DETROIT MI 48226
(313) 256-9822
VIDEO RECORDED
TRANSCRIBED BY:
CONNIE L. BRANCH CER 5624
PO BOX 19563
KALAMAZOO, MI 49019 (269) 377-7170

690
[Page 2]
TABLE OF CONTENTS
WITNESSES:
KALI ROSEBOOM
Examination by Ms. Bruinsma
Examination by Ms. Meinberg

13
17

HANNAH DECAMP
Examination by Ms. Bruinsma
23
Examination by Ms. Meinberg
28
Further examination by Ms. Bruinsma 32
Further examination by Ms. Meinberg 33
ROBERT JANKORD
Examination by Ms. Bruinsma
35
Examination by Ms. Meinberg
40
Further examination by Ms. Bruinsma 44
BRADLEY LEWIS
Examination by Ms. Bruinsma
Examination by Ms. Meinberg

46
53

JENNIFER PADGETT
Examination by Ms. Bruinsma
58
Examination by Ms. Meinberg
63
Further examination by Ms. Bruinsma 66
Further examination by Ms. Meinberg 71
THOMAS RUZICK
Examination by Ms. Bruinsma
74
Examination by Ms. Meinberg
76
Further examination by Ms. Bruinsma 78

691
JAMES VANDERVEEN
Examination by Ms. Bruinsma
79
Examination by Ms. Meinberg
87
Further examination by Ms. Bruinsma 90
THOMAS VANDERMEULEN
Examination by Ms. Bruinsma
Examination by Ms. Meinberg

93
95

MICHAEL WHATELY
Examination by Ms. Bruinsma
Examination by Ms. Meinberg

97
103

EXHIBITS

Identified

Admitted

None
[Page 3]
Kalamazoo, Michigan
Friday, June 24, 2011 at 9:11 a.m.
COURT CLERK: The court calls the matter of
People versus Ervine Lee Davenport, case number
C07-0165FC.
Parties, please state appearances for the record.
MS. BRUINSMA: Good morning, your Honor,
Cheri Bruinsma appearing on behalf of the People.
MS. MEINBERG: Good morning, Susan Meinberg
from the State Appellate Defender Office on behalf of
Mr. Davenport.

692
THE COURT: Mr. Davenport is here also.
Counsel, we are here on remand, there is an issue
we need to address with regards to the fact that during the trial Mr. Davenport did have a belly chain and
his left wrist was connected to the chain. We left his
right wrist open for notes and contact with his attorney and so forth during the trial -- and also ankle
chains, correct, Counsel?
MS. MEINBERG: That’s correct.
THE COURT: And so it has been remanded back
to us. Nothing has been placed on the record with regards to the reasons for that, aside from a comment
by the Prosecuting Attorney, and I’ll get to that in a
moment.
So, the issue for the Court right now is whether or
not any of the jurors saw any shackles or chains or
[Page 4]
whatnot and whether, depending on what is said -well, that is the issue right now and we’ll move on to
the next issue if need be.
We’ve discussed this, just briefly, in chambers.
And I did indicate that I was going to place a few
things, comments, on the record and I addressed those
with Counsel beforehand, so that you are aware of
that. And -- so let me just start by doing that and then
I’ll turn it over to you Counsel for brief arguments.

693
You both have submitted some memorandums
with regards to this evidentiary hearing; I’ve reviewed
those and we discussed kind of the procedure.
We have subpoenaed the jurors on this case and
they are upstairs. Some of them are here and the rest
of them will hopefully be checking in and we know
that we had issues with a few of them and the Court
excused them for the day and we will bring them back,
if need be, depending on where we are at. But I think
that there are three of them that we have -- that are
not coming today; the rest of them should be here.
But let me just say this, I explained to Counsel
that my general procedure during trials is when
things are discussed in chambers -- I usually take
notes and I have a list with me that I then bring out
to the bench just to make sure that things are covered.
[Page 5]
I apologize because in this case, obviously, the reasons for the Court’s decision were not placed on the
record. It is three years later; I certainly don’t remember the specifics of the conversation that was had in
chambers with Counsel and neither of you were present at the trial, so it wasn’t you that I had the conversation with. And certainly if we need to get information from the attorneys, then we can do that later
if need be.
I do have a specific recollection that we did discuss
whether or not Mr. Davenport should remain in
shackles, I guess, during the trial. I don’t, certainly,
remember all of the specifics of that conversation. It is
referenced in the transcript that there was some

694
concern by; the Sheriff’s about a comment made by
Mr. Davenport to them and they took that as a threat.
That information was passed on to us and I do remember that and that is why it came up in chambers.
And based on that -- I know that we also had discussion about Mr. Davenport’s size and the way that
the prosecuting attorney was alleging the victim was
killed in this case. There was some concern about that.
We -- and that is all I remember about what was
discussed and why the Court took the action that it
did. And I’ll just indicate that it is not something
standard that the Court does. If there is an issue or
there is a
[Page 6]
security issue or some concern, then the Court makes
that decision. That is just a broad statement, not related to this case in general; but I will say that.
And I know that, like -- as I indicated before,
Counsel -- defense counsel made a request to let Mr.
Davenport be able to write notes to him so that he
could be involved with his defense and we allowed
that. So, I will state that also.
And -- obviously the record at trial is the record at
trial, so I am just indicating my recall three years
later, again. And I -- another thing that I told Counsel
was that when the Court of Appeals opinion came out
and I read the opinion, I do have a specific recollection
of thinking, I can’t believe we didn’t put that on the
record. We didn’t, obviously, from -- and I will say that
I have not reviewed the entirety of the record; Counsel

695
certainly has, I can tell, from the briefs, so I will say
that.
But that is the only thing that I remember with
regards to the case, so that is all I can say about that
issue.
With that, I am going to turn it over to Ms. Bruinsma first for any arguments, comments, before we
start bringing the jurors down.
I

MS. BRUINSMA: Your Honor, the only thing that

[Page 7]
would like to have addressed on the record is just the
issue with respect to questioning the jurors and the
extent of the questioning.
We both filed memorandum on this case; I did do
a supplemental one just on the issue of the extent of
the questioning of the jurors and I think that it is appropriate, given the issues in the case and the Court’s
ultimate determination to ask the jurors if they did -indeed did see the Defendant in shackles and/or leg
chains, and whether that affected their verdict. I cited
the case law that I believe supports allowing that
questioning in my supplemental response and I would
-- I would ask that the Court do allow that questioning.
Certainly if the Court of Appeals or subsequent
court were to decide that that was not appropriate,
they could disregard that, but I think that it makes
sense to ask that question given the issues and to

696
prevent any further need for evidentiary hearing
down the road. So, I would ask that the Court allow
those questions.
MS. MEINBERG: Your Honor, first of all, for the
record and I hate to be ironic, but I am going to need
Mr. Davenport’s assistance during this hearing. If he
could have his right hand unshackled.
THE COURT: That’s fine.
MS. MEINBERG: That would be great; he can
take
[Page 8]
notes.
As for the extent of the questioning, I would just
refer this Court to the Michigan Supreme Court order
in this case that says that we are here for a determination as to whether the jurors saw the shackles. And
then it says that this Court shall make a determination about whether the Prosecutor has met its burden.
Also, when you look at Deck versus Missouri, the
only issue -- shackling is different than extraneous influences on a jury. Shackles is held to a different
standard.
And if you look at Deck, which is a 2005 case, the
only issue is whether the shackles were visible. Deck
doesn’t say anything about that we have to remand it
back to decide if the jurors, you know, talked about the
shackles; whether it affected their verdict. I am not

697
sure that any juror is going to get on the stand and
admit that, yes, it affected their verdict.
And if you look at Budzyn, which is the case cited
by the Prosecutor, that deals with general extraneous
influences. And it talks about the threshold requirement of the defendant and then how that burden, if it
is met, flips to the prosecutor to show -- um -- whether
the error was harmless beyond a reasonable doubt.
And the Supreme Court in Budzyn, tells you that
[Page 9]
the only two ways that the prosecutor can meet that
burden is to show that the extraneous evidence was
duplicative of what was admitted at trial, that can
make it harmless; or if evidence of guilt was overwhelming. They didn’t -- they don’t say anything
about the jurors have to come in and say we talked
about it or it made a difference, it affected the verdict.
Now definitely Ms. Bruinsma is right, there were
jurors that came in, in the case she cited, who made
those statements on the record, but it is not part of the
burden. So, we would object to the Court opening it up
in that manner.
THE COURT: I indicated -- we discussed this in
chambers also Counsel, that I was going to allow the
jurors to be questioned with regards to whether or not
it came up in their deliberations and whether or not it
affected their verdict in any way.

698
The Court is -- my reading of this -- the opinion
from the Supreme Court is that the Court is to determine:
Number one, whether the Jury saw the Defendant’s shackles and we have -- everyone has been cooperative. We have subpoenaed all of the jurors so we
can ask them if they have a recollection of that. And if
so, what the recollection is, number one.
The next step, if one of the jurors indicates
[Page 10]
that yes, they did see handcuffs or shackles, the Court
also has to decide, as you indicated, whether the prosecution can demonstrate beyond a reasonable doubt
that the shackling error did not contribute to the verdict. I wasn’t in the room deliberating, certainly, so I
think that some of the best evidence that we can get
on that issue is asking the jurors themselves.
We have subpoenaed the jurors and taken time
out of their busy schedules to be here today and certainly I don’t want to have to bring them back again
to go to that next step if need be. So, they are here -- I
think that it is appropriate given the requirements
that the Court needs to decide or potentially needs to
decide to ask them those questions. So, I will allow
those questions.
We discussed this. Also, procedure wise and I indicated that it is the Prosecuting Attorney’s burden,
so I am going to let Ms. Bruinsma ask the questions,
but I -- I don’t expect that it is going to be too long for
each juror, but I will allow questioning on:

699
Number one, do they have a recall as to whether
or not they saw shackles or chains or handcuffs and
what that recollection is -- they have -If they remember whether or not there was any
discussion about that among the jurors at any point
and again, what their recollection is and whether or
not that
[Page 11]
influenced their decision or verdict in any way.
So, I will allow those questions to be asked.
Anything else that we need to address, then,
Counsel, before we bring the jurors down?
MS. BRUINSMA: I don’t believe so, your Honor.
MS. MEINBERG: Your Honor, the shackles.
THE COURT: He does need to -- yeah, if you could
just remove his right hand there, yes.
All right.
Also with regards to the procedure, I -- my law
clerk, Aaron Van Langevelde, is going to be bringing
two jurors down from upstairs at a time. And we did
let him know that they are going to be placed under
oath; we are going to ask them questions we will have
them state their name -- and we are going to ask them
questions about an issue that arose during the trial.
So, they will be informed about that.

700
My understanding is that the first juror that
comes has a family member who is in critical condition, so we are going to get that juror in and out of
here.
So, we will do it that way.
And those of you in the courtroom. Just a reminder that if you have a cell phone or an electronic
device to make sure that it is turned off. If it goes off,
I will take it until the end of the day. So, double check
[Page 12]
that, there are signs everywhere. Just a reminder.
Ma’am, come right over here. Before you have a
seat, I am going to have you raise your right hand. I
am going to place you under oath.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MS. ROSEBOOM: I do.
THE COURT: Please have a seat. I am going to
have you state and spell your first and last name. Before I do that, I am just going to let you know that you
need to make sure that you speak right in the end of
that microphone. If you go to either side, sometimes
our recording system does not pick up. So, first of all,
I’ll let you state your first and last name and spell it
please, for the record.
THE WITNESS: Kali Roseboom, R -- or -- K-a-l-i
R-o-s-e-b as in boy-o-o-m.

701
THE COURT: We are going to go through some
questions about the trial. I realize that it was three
years ago now, back in 2008. If you do not remember
something, please let us know that, if you can’t answer
the question.
THE WITNESS: Okay.
THE COURT: I am going to turn it over to the
[Page 13]
Prosecuting Attorney first to ask you some questions.
The Defense Attorney might have some follow up
questions. The attorneys are different than the ones
at trial. I don’t know if you remember that or recognize them, but you are not going to recognize them because they are different.
But I am just going to turn it over to them; we just
have some questions about an issue that arose during
the trial. All right.
THE WITNESS: Okay.
THE COURT: Ms. Bruinsma.
MS. BRUINSMA: Thank you, your Honor.
KALI ROSEBOOM
Called to testify at 9:27 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:

702
Q Good morning, Ms. Roseboom.
A Good morning.
Q Do you recall being a juror on this case?
A I do.
Q And this is the Ervine Davenport case?
A Yes.
Q Okay.
And has anybody discussed with you the reason
that you are here today?
A No.
[Page 14]
Q Okay.
During the trial, do you recall the Defendant
being present in the courtroom?
A Yes.
Q Is there anything about his appearance in court
that stands out in your mind?
A He was dressed really nice. The first day he was
wearing his prison suit and then the rest of the
time he was dressed nice.
Q Is there anything else about his appearance that
stands out in your mind?

703
A No.
Q Anything about how the Defendant presented himself in court stand out in your mind?
A No, he was just sitting there.
Q Do -- did you notice during the course of the trial
whether the Defendant was restrained in any way?
A No, because he was always sitting when we came
in.
Q Did you ever see the Defendant wearing handcuffs
or any restraints on his hands?
A Um, no.
Q During any part of the trial?
A I think maybe the first day when we were doing
the jury selection when he was wearing the orange
thing; but I don’t remember any other time.
[Page 15]
Q And so -- do you recall what it was that you saw?
A On the first day?
Q Yes.
A He was wearing the orange jumpsuit thing on the
first day of the jury selection and I think that he
was handcuffed. I don’t -- I don’t recall exactly. But
the rest of the time he was just looking normal.

704
Q So you don’t recall any -- any time for his hands
being restrained other than that first day?
A No.
THE COURT: Let me just back up.
No, you don’t recall or no -THE WITNESS: I don’t recall him ever being
handcuffed afterwards -THE COURT: Okay.
THE WITNESS: -- or any other day.
MS. BRUINSMA: Okay.
BY MS. BRUINSMA:
Q How long, if you recall, did you -- were you able to
see the handcuffs?
A I was in the front row right by him on the first day
when they were doing the selection and stuff and I
only saw him once. And I was one of the first people
called up and I didn’t see him any other time, I
didn’t know if he wore them for the rest of the day
or not or what was going on
[Page 16]
there.
Q Did seeing the handcuffs make you think anything
in particular?

705
A No.
Q Okay.
Did it make you -- did it have any significance
at all to you?
A No, because I just thought that he was just coming
from the county wherever he was staying during
the trial.
Q Did you assume that to be a routine type of thing?
A Yeah.
Q And did you ever discuss the fact that you saw the
handcuffs with any of the other jurors?
A No.
Q Okay.
Was it something that came up during the
course of deliberations at all?
A No.
Q Did viewing the Defendant in handcuffs affect your
verdict in the case?
A No, I thought that the first day that it was just routine and then I didn’t see them any other time, so
I didn’t think that he was.
Q Did it make you any more inclined to find him
guilty?

706
A No.
[Page 17]
Q Did you see whether the Defendant’s legs were restrained in any way?
A No, I didn’t, he was always sitting.
Q Do you recall if any any of the other jurors mentioned that fact to you during the course of the
case?
A No, the only time that we talked about it was, obviously, when we were deliberating and nobody
mentioned anything.
Q Let me just clarify a second. The only time that you
talked about it -A The case.
Q -- you mean the case?
A Yes. I’m sorry.
Q All right.
And to your recollection, the fact that there
was, handcuffs was not something that was ever
discussed?
A No.
Q You decided the case based on the evidence that
you heard at trial?

707
A Yes. We all did our -- we all wrote down everything
and we spoke it over and that is how we decided
the verdict.
MS. BRUINSMA: I don’t have any further questions.
THE COURT: Counsel.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning.
[Page 18]
A Good morning.
Q Thank you so much for coming.
Do you remember Mr. Davenport testified during trial?
A Yes.
Q And do you remember that the Jury had to go out
in the hallway before he testified?
A I don’t -- I don’t know for sure; but probably.
Q Okay.
And do you remember –
A We went out in the hall a lot.
Q Okay.

708
And do you remember when you came back in,
Mr. Davenport went from being on the -- at the
counsel table, he was sitting in the witness chair
when you came back in the courtroom?
A Yes.
Q Did -- did you figure out why you had to go out in
the hallway?
A No.
Q Okay.
A We had to go out in the hallway a lot.
Q Okay.
And when the Jury took stand and stretch
breaks, did you ever look over at the defense table
and see a
[Page 19]
Q handcuff on his wrist?
A No.
Q Which seat were you –
A I was number four.
Q Number four.
I’m sorry, I am not from this district, where where is number four?

709
THE COURT: Actually -- just -- Counsel, let me
just indicate. There would have been 14 jurors. There
would have been another chair there which we bring
in if there is 14, not 13.
So, that would be -- actually, no -THE WITNESS: It was one, two, three and then I
was four.
THE COURT: Our number system was backwards. We used to start from there and now we are
starting from here.
So, she is front row and then fourth row (sic) from
that far end, right?
THE WITNESS: Yes.
THE COURT: The fourth chair from the far end?
MS. MEINBERG: Okay, great.
BY MS. MEINBERG:
Q So you said that you saw the cuffs on the first day?
A Yes.
Q And did you notice the deputy standing behind
him?
[Page 20]
A I think so; there were a lot of deputies standing
around.

710
Q And what did -- what did you think that meant?
Did you think that he might be dangerous?
A No, I just thought that was routine; I have never
done jury duty before.
Q Okay.
And during voir dire, you were sitting in the
first row?
A Yes.
Q And you said that you saw the cuffs on the first
day?
A I think so, yes.
Q And during voir dire, were you one of the jurors
that went up to the bench and talked to the Judge
about any problem that you had with serving?
A No, I did not have a problem at the time, so -Q Okay.
Did any of the alternate jurors or anyone else
in the -- in the pool, in tho beginning, talk about
the shackles -A No.
Q Or the cuffs.
Okay.

711
Did you see anyone else in the courtroom shackled?
A No.
[Page 21]
MS. MEINBERG: Thank you.
THE WITNESS: You’re welcome.
THE COURT: Anything further, Counsel.
MS. BRUINSMA: No follow up questions, your
Honor.
THE COURT: Let me just clarify for the record.
You pointed, when you were asked a question
about coming in with the initial pool and that you
were seated in the front row and then you pointed in
this direction.
THE WITNESS: Yes.
THE COURT: So if you are looking out at the court
in the back of the court, you were sitting on the right
side in the front row?
THE WITNESS: Correct.
THE COURT: There is a gentleman in a gray suit
sitting down in the very front row there, in front of the
double doors that go to the back of the courtroom.
Were you sitting where he is or in the row behind him?

712
THE WITNESS: I was behind the double doors in
the row behind him.
THE COURT: So, the first row behind the double
swinging doors there.
THE WITNESS: Yes.
THE COURT: Okay.
I appreciate that. Any follow up, Counsel, based
on the Court’s questions?
[Page 22]
MS. BRUINSMA: No, your Honor.
MS. MEINBERG: No, your Honor.
THE COURT: All right.
Thank you, ma’am.
THE WITNESS: Thank you.
THE COURT: You are excused; you can leave for
the day. We appreciate your time. Please don’t discuss
the testimony with anyone.
THE WITNESS: Okay.
THE COURT: I assume that you are not going to
have contact with jurors, but I don’t know.
THE WITNESS: No.
THE COURT: So, anyone who has been subpoenaed, don’t discuss this with them.

713
THE WITNESS: Okay.
THE COURT: Thank you, ma’am.
THE WITNESS: Thank you, so much.
(At 9:35 a.m., witness excused)
THE COURT: The next witness should be coming
in shortly.
Before you have a seat ma’am, please raise your
right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
[Page 23]
MS. DECAMP: Yes.
THE COURT: Please have a seat ma’am.
I am going to have you state your full name, first
and last name, and spell it in a moment. But before I
do that, just make sure that you speak right into the
end of that microphone. If you move to either side,
sometimes our recording system doesn’t pick up and
it is hard for folks to hear.
So, please state and spell your first and last name,
if you would, ma’am.
THE WITNESS: Hannah Decamp. H-a-n-n-a-h De-c-a-m-p.

714
HANNAH DECAMP
Called to testify at 9:35 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
THE COURT: We are going to ask you questions
about an issue that arose during the trial. If you don’t
remember please feel free to let us know that; I don’t
want you to guess at anything.
I am going to turn it over to Ms. Bruinsma in a
moment, she is with the Prosecuting Attorney’s Office.
The attorneys are different than the attorneys that
were present during the trial, so -- just so that you are
aware of that. I don’t know if you have any recollection
of what the attorneys looked like; but I’ll go ahead and
turn it
[Page 24]
over to Ms. Bruinsma, she’ll have some questions for
you.
MS. BRUINSMA: Thank you, your Honor.
BY MS. BRUINSMA:
Q Good morning Ms. Decamp.
Do you recall being a juror on this case?
A Yes.
Q And this would be the Ervine Davenport case, correct?

715
A Yep.
Q Has anyone discussed the reason that you are here
today with you?
A No.
Q Okay.
During the trial, do you recall the Defendant
being present in the courtroom?
A Yes.
Q Do you recall anything about his appearance? Is
there anything that stands out in your mind?
A No.
Q Do you recall how he was dressed at trial?
A Nice, I think he had nice clothes on, I feel like.
Q Do you remember anything in particular that he
was wearing?
A Khaki’s and a button up shirt, I feel like.
Q Is there anything about how he presented himself
during the course of the trial that stands out in
your mind?
A No.
[Page 25]
Q Do you -- did you notice during the trial whether
the Defendant was restrained in any way?

716
A No.
Q Did you ever specifically see the Defendant wearing handcuffs during the trial?
A Not that I remember.
Q All right.
And during the voir dire process as well, when
you were being -- when they were selecting the
Jury, do you recall seeing the Defendant in handcuffs at all?
A No.
Q What about seeing the Defendant in leg shackles?
A I don’t remember -- I don’t -Q You don’t recall seeing anything like that?
A I remember him standing up, but I don’t remember
if he had leg shackles on or not.
Q Okay.
And when he stood up, do you recall seeing anything like handcuffs on him?
A I don’t remember, no.
Q Okay.
Is there anything else about the Defendant’s
appearance during the course of the trial that
stands out in your mind?

717
A No.
[Page 26]
Q During the course of the deliberations, did anybody
mention to you or do you recall it being discussed
that the Defendant was wearing any type of restraints?
A I remember like when we first started, we came in
and we sat down and he had to go right back out
and then he was different -- dressed different when
we came back in.
Q But when the jurors were discussing things in the
room by -- themselves
A Oh, no.
Q -- did anybody ever mention that fact?
A No.
Q Was it something that came up during your discussions at all?
A Yeah, just upstairs, I think -- I don’t know.
Q That the Defendant was wearing handcuffs?
A That we had to go out because he had to change.
Q Clothing or -A Change -Q -- what was your understanding?

718
A -- his clothes.
Q Was that something then that you discussed as a
group?
A Like -Q The jurors?
A Yeah. Yeah.
Q Okay.
[Page 27]
So you discussed the fact that you had to go out
of the courtroom?
A Right.
Q And did you -- was it specifically discussed that the
Defendant was wearing handcuffs?
A No.
Q Was it discussed that he was wearing leg irons or
leg shackles?
A No, I think that he was in an orange -- like an orange -THE COURT: I need you to speak up just a little
bit, if you would.
THE WITNESS: I think that he was in an orange
suit and then had to change into nice clothes.

719
BY MS. BRUINSMA:
Q Okay.
And do you recall what the -- what the discussion was then about -A No.
Q Okay.
A I just remember us having to leave for that.
Q And you remember the jurors having to leave the
courtroom, you -- were you told that was because
the way he was dressed or that was something that
you presumed?
A I guess that I presumed that.
Q Okay.
[Page 28]
And was that something that was discussed
with the other jurors?
A That day, yeah.
Q Do you recall what was discussed specifically?
A I mean, I think that we just said that was -- I don’t
know, it was just like an observation.
Q Okay.
A It wasn’t --

720
Q Oh, we had to in the hall, oh, he must be changing
his clothes or something like that.
A Like later that day.
Q Okay.
MS. BRUINSMA: I don’t have any further questions from this witness.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning. Thank you, so much for coming.
When you -- on the first day of trial when you
first came in, in a big jury pool, can you tell me
where you were sitting in the gallery? Do you remember?
A No, I don’t remember.
Q Because you sat in the gallery the first day and
part of the second day, but you don’t remember either day where you were sitting?
A The first day, I feel like I was sitting third or fourth
on
[Page 29]
that side.
Q On the right side where the gentleman in the gray
is?

721
A Mmm hmm, but like farther back.
Q Farther back.
A And I think the whole second day I was up here.
Q Okay, second day you were in the jury box?
A Yes.
Q And what do you remember what seat you were sitting in, in the jury box?
A No.
Q Okay.
And so when you were -- during the voir dire
when they were picking the jury and you were sitting in the gallery, do you ever remember looking
at Mr. Davenport sitting at counsel table?
A Yeah, I mean, I’m sure I did.
Q Did you remember seeing any belly chains or a
chain around his waist, especially when his lawyer
got up to stand here? Did you notice anything when
he was sitting in the chair that was around his
waist?
A I don’t remember.
Q Okay.
It has been three years since the trial. You are
having a hard time remembering details?

722
A Yes.
[Page 30]
Q So, it is possible that you did see it, but you just
don’t remember?
A Yep.
Q Okay.
And when you were in the jury box and you
stood -- took a stand stretch break or walked in and
out, do you ever remember looking over at Mr.
Davenport and seeing a handcuff on his wrist?
A No.
Q Okay.
When he turned to look at that screen behind
him, do you ever remember seeing a handcuff on
his wrist?
A No.
Q No you didn’t see it or no, you don’t recall?
A I don’t remember.
Q Okay.
Did you ever hear the sound of chains clanking
or anything you thought that might be handcuffs
or foot restraints or leg restraints?
A No.

723
Q Okay.
You say that you remember having to leave the
courtroom for maybe -- what you presumed was
change in clothes; do you remember -- right before
Mr. Davenport took the stand and testified, the
Jury went out in the hallway,
[Page 31]
do you remember that?
A Mmm hmm.
THE COURT: Was that a yes?
THE WITNESS: Yes.
BY MS. MEINBERG:
Q And then you were out there briefly. When you
came back in, do you remember that Mr. Davenport was now sitting in the witness stand?
A Yes.
Q And did you ever guess as to why that was that you
had to go out in the hallway?
A I didn’t. I just remember somebody saying that he
had changed.
Q His clothes?
A Right.
Q Okay.

724
A And I don’t even know if that is right, honestly; I
don’t remember.
Q Okay.
And did you notice every day when the Jury
walked in and walked out, the Def -- Mr. Davenport and the lawyers, didn’t stand up? Did you ever
guess why that was?
A No.
MS. MEINBERG: I have nothing further, thank
you.
MS. BRUINSMA: Just a couple of follow up
[Page 32]
questions, your Honor.
FURTHER EXAMINATION BY THE
PROSECUTION
BY MS. BRUINSMA:
Q Ms. Decamp, when you were deliberating on the
case, did you decide the case based on the evidence
that was presented?
A Mmm hmm, yes.
Q And when you were deliberating, do you recall anybody mentioning handcuffs or shackles or anything like that?
A No.

725
MS. BRUINSMA: No other questions.
THE COURT: Just so I am clear, Ms. Decamp, as
you sit here today, you don’t ever remember seeing
Mr. Davenport in handcuffs or shackles; or you don’t
have a memory of that one way or the other?
THE WITNESS: I don’t have a memory of that one
way or the other. Like I remember seeing him, but I
don’t remember if he had handcuffs or not.
THE COURT: Do you have any memory of anyone
bringing up, during deliberations, whether he was
shackled or had handcuffs? Did anyone discuss that
that you remember?
THE WITNESS: No.
THE COURT: I don’t have any further questions,
Counsel, any questions based on the Court’s line of
questioning, Ms. Bruinsma?
[Page 33]
MS. BRUINSMA: No, your Honor.
THE COURT: Ms. Meinberg?
MS. MEINBERG: I have just one.
THE COURT: Yes, go ahead.
FURTHER EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:

726
Q Okay, so, forgive me, I’m confused. You don’t remember whether or not it was brought during deliberations or no it wasn’t mentioned during deliberations?
A I honestly don’t think it was mentioned. I mean, I
remember everything that we discussed was always the evidence.
Q Okay.
So when somebody made a mention about the
clothes or having to go out for the clothes, that
wasn’t during deliberations, that was just during
the course of -A Right.
Q -- talking -A Right.
Q And you are not guessing, though, about deliberations -A Right.
Q -- you do or don’t have a memory?
Q I remember that -- I don’t remember talking about
handcuffs or shackles.
MS. MEINBERG: Okay, thank you.
[Page 34]
THE COURT: Thank you, ma’am.

727
Anything further Ms. Bruinsma?
MS. BRUINSMA: No, your Honor.
THE COURT: You may step down.
Please do not discuss your testimony here, what
the issues that were that we asked you questions
about with anyone else. Okay.
THE WITNESS: Okay.
THE COURT: Thank you.
(At 9:47 a.m., witness excused)
THE COURT: Before you have a seat, sir, please
raise your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. JANKORD: Yes ma’am.
THE COURT: Please have a seat.
I am just going to let you know that you need to
speak right in the end of that microphone. If you move
to either side, then the recording system might not
pick up what you are saying, so be careful of that.
MR. JANKORD: Okay.
THE COURT: I am going to ask you -- the attorneys are going to ask you some questions in a moment,

728
I might add a couple, but before we do that, please
state
[Page 35]
and spell your first and last names.
THE WITNESS: Robert Jankord, J-a-n-k-o-r-d.
THE COURT: And Robert is spelled, R-o-b
THE WITNESS: R-o-b-e-r-t, yes, sorry.
THE COURT: Go ahead.
I guess that I should indicate. The attorneys are
different than those than the attorneys that were handling the case, but they are going to have some questions for you. So, I’ll turn it over to Counsel.
ROBERT JANKORD
Called to testify at 9:48 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, Mr. Jankord.
A Good morning.
Q Do you recall being a juror on this case?
A Yes ma’ am.
Q And that is the Ervine Davenport case, correct?

729
A Yes ma’ am.
Q And has anyone discussed with you the reason you
are here today?
A No ma’am.
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
[Page 36]
Q Is there anything about his appearance in court
that stands out in your mind?
A Not that I can recall.
Q The trial was about three years ago, is that correct?
A Yes.
Q Okay.
Is there anything about how the Defendant presented himself in court that stands out in your
mind?
A No.
Q Do you recall what the Defendant was wearing
during the trial?
A Um, I think that he had an orange jumpsuit on at
one point when it first began and then later we

730
came back into the courtroom and he was wearing
a dress shirt and I believe dress pants; I couldn’t
tell you what color they were, though.
Q Okay.
Did the orange jumpsuit have any significance
to you?
A No, just meant that he was in the custody of the
police or the jail or whatever.
Q And did you notice if he was restrained in any way?
A Well yes, actually. When we -- when when we first
came into the room, I did notice that his hands
were restrained.
[Page 37]
Q When you say when you first came into the room,
can you describe what you are referring to?
A When we first took our seats in the jury box.
Q The jury box being up here by the witness stand or
in the back of the courtroom when you first came
in?
A I didn’t notice anything until I sat down in my
chair -- until I called by the prosecutor -- I forget
what his name was -- Stuart, I think was his first
name.
Q So it was during the voir dire process when he -when Mr. Fenton was questioning you, that you
noticed that?

731
A Right, he would -- the Defendant was doodling
with something and I noticed that one of his hands
was cuffed, but -Q Approximate -- where were you seated in the jury
box itself?
A It was towards the end; I can’t tell you for sure. I
think that it was in the back row. I can’t tell you
with 100 percent certainty; it was three years ago,
so I apologize for that.
Q Okay.
Now, did seeing the handcuff, did that have any
significance to you?
A No, it just meant that he was on trial and that he
was currently in custody of the County.
Q Do you recall approximately how long of a time period it
[Page 38]
was that you were able to view the handcuff?
A No, I didn’t time it. It wasn’t -- to me it was of no
significance. I didn’t even pay attention to it.
Q Did the fact that the Defendant was wearing handcuffs influence you in any way?
A Not at all.
Q Um, did the jurors ever discuss the fact that the
Defendant was wearing handcuffs?

732
A Not that I can recall.
Q Did viewing the Defendant in handcuffs affect your
verdict at all?
A No, not at all.
Q Did the handcuffs make you more inclined to find
the Defendant guilty?
A No. No.
Q Did you base your verdict on the evidence that you
heard?
A Absolutely.
Q And during the course of deliberations, was that a
subject that was discussed, the handcuffs?
A Not at all.
Q Now, did you notice whether the Defendant’s legs
were shackled?
A I don’t recall that; I’m not sure.
Q

Okay.
You have no recollection at this point of
whether

[Page 39]
that was something that you saw or not?
THE COURT: That would be the ankle or leg
shackles?

733
BY MS. BRUINSMA:
Q The ankle, yes, the leg shackles?
A No, I don’t remember that. I mean, it is possible
that at the time I saw it -- I mean, it was three
years ago, so I don’t really have a good memory
about that, that far back.
Q Would -- would seeing the Defendant in leg shackles have any significance to you?
A No, it just to me an extra measure of security for
the people and family and stuff in the courtroom.
Q Would it influence you in any way?
A No, not at all.
Q Okay.
And was that something that the jurors ever
discussed, the leg shackles, specifically?
A Not that I was ever a part of or can recall hearing,
no.
Q Okay.
Would that have been something that would affect your verdict?
A Not my verdict, no.
Q Okay.

734
Again, you based your verdict on the evidence
that was presented?
[Page 40]
A Yes ma’ am.
Q What about the orange jumpsuit, did that have any
impact on you whatsoever?
A No, not at all.
Q Okay.
I don’t have any further questions.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning, thank you so much for coming.
Can you spell your last name for me?
A Yes, J-a-n-k-o-r-d.
Q Uh, thank you.
The first day of trial and part of the second
when they were picking the jurors, can you tell me
where you were sitting in the gallery; do you remember?
A I was sitting in the one, two -- the second from the
back on the right side --

735
Q The right side behind the gentleman in the gray?
A Not quite as far as over as he is; more towards the
end, closer to the middle.
Q Okay.
A But in the second row back there.
Q And when they were picking the Jury and you were
sitting back there, did you ever look up at Mr. Davenport and see a
[Page 41]
belly chain around his waist?
A Oh yeah, I did notice because his hands -- his
hands were cuffed to it.
Q Okay.
And you said that you saw the cuff from the jury
box?
A Right, only when he was, you know, -- he has his
hands like this, doodling.
Q And how many times did you see it from the jury
box?
A I didn’t count, maybe twice -- I don’t know. I don’t
have an exact count, sorry.
Q Okay.

736
And when he -- when they were showing things
on the screen behind Mr. Davenport and he turned,
did you see any restraints at that point?
A Not that I was paying attention to.
Q And you said when you were sitting in the jury box,
you think you were in the back row but you don’t
remember where; is that correct?
A I was more towards the end -- actually I think I
was in the front row. It was -Q Front row?
A Yeah, it was either -- it was towards the end,
though --honestly I can’t remember. But I know
that it was towards the end -[Page 42]
Q You are talking about the right-hand side as I look
at the jury box, that -A Yes ma’ am.
Q -- end?
A Yes ma’ am.
THE COURT: Further away from the witness box
where you are seated?
THE WITNESS: Right.
BY MS. MEINBERG:

737
Q And when you looked at Mr. Davenport, did you
notice that he had limited movement at the table?
A Only when he had his hands up on his legal pad
that he was drawing on.
Q Okay.
And when the Jury stood up to take a break, did
you were you able to look over at Mr. Davenport -did you see his handcuff at that point also?
A I don’t recall what we were doing -- what I was
looking at when we stood up to take breaks. But I
mean, I did notice that he had been shackled at one
point with his hands. That is pretty much what I
can recall.
Q And did you see that every day or you just saw it
twice during the entire trial; do you remember?
A I think it was just right at the very beginning during the like -- when they were picking the Jury and
that type of
[Page 43]
stuff. Other than that, I am not -- I don’t really recall him being handcuffed or anything a whole lot
during the trial.
Q Okay.
And -- you noticed that he was shackled and did you see the deputies in the courtroom during
the trial?

738
A Absolutely.
Q And what did you think the purpose was for him to
be shackled and to have deps in the courtroom?
A Security.
Q Did you think that he might be dangerous?
A Absolutely.
Q Did you think that he might be violent?
A I didn’t have any knowledge of whether he may be
violent.
Q Did you feel safer that he was -- that he was restrained?
A Not necessarily that he was restrained; there was
plenty of officers in the room. I wasn’t too worried
about my safety.
Q And you realized that he was charged with first degree murder, right?
A Yes.
Q Did any of the alternate jurors or any of the jurors
in the juror pool, did they ever discuss seeing the
cuffs or the restraints?
A No ma’am.
[Page 44]
MS. MEINBERG: I have nothing further.

739
THE WITNESS: Thank you.
THE COURT: Anything further, Counsel?
MS. BRUINSMA: Yes, your Honor.
FURTHER EXAMINATION BY THE
PROSECUTION
BY MS. BRUINSMA:
Q You indicated that you did notice, at one point,
that he had the belly chain and that his hands
were cuffed to that. At what point was it that you
noticed that?
A You know, I don’t really recall at what point it was
that I noticed that. Like I said, I just noticed that
his hands were really close together because he
was trying to draw on his legal pad. I couldn’t tell
you exactly what part of the process that was at.
Q Okay.
Did the -- did the subject of the belly chains
come up at any point during deliberations?
A No ma’ am.
Q Did seeing him in the belly chains make -- affect
your verdict in any way?
A Not at all.
Q Now you indicated that you presumed that the restraints that were used were a security measure?

740
A Right.
Q Did you think that was anything unusual?
[Page 45]
A No, not at all.
Q Did you -- you indicated that it -- you thought that
it might mean that the Defendant was dangerous.
Do you presume that was just because of the nature of the case?
A Absolutely.
Q Nothing specific to him?
A No, not at all.
Q Would you assume that most defendants would
wear those types of restraints in a courtroom?
A If charged with murder, I would assume, yes.
Q And again, any of the restraints that you viewed,
did they have any affect on your verdict whatsoever?
A No ma’ am.
Q Did you decide the case based on the evidence?
A Absolutely.
MS. BRUINSMA: I don’t have any further questions.
THE COURT: Anything further Ms. Meinberg?

741
MS. MEINBERG: Nothing, thank you.
THE COURT: Thank you, sir. We appreciate your
time and coming back here. Please don’t discuss your
testimony with any of the other jurors and you are excused.
THE WITNESS: Thank you.
(At 9: 59 a.m., witness excused)
THE COURT: Before you have a seat sir, raise
[Page 46]
your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. LEWIS: I do.
THE COURT: Please have a seat. In a moment, I
am going to ask you to state and spell your name, but
before I do that -- just so that you know, the attorneys
are obviously different than the attorneys that were
present during the trial. They are going to have some
questions to you -- for you about an issue or issues that
arose during the trial. If you don’t know something,
please make sure that you let us know; we don’t want
you to guess at anything.
Okay.
THE WITNESS: Okay.

742
THE COURT: Please -- you have to speak right in
the end of that microphone. If you move to either side,
then sometimes our recording system doesn’t pick up
so well.
So, please state and spell your first and last name
for the record if you would, sir.
THE WITNESS: Bradley Lewis, B-r-a-d-l-e-y L-ew-i-s.
THE COURT: Counsel.
[Page 47]
BRADLEY LEWIS
Called to testify at 10:01 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, Mr. Lewis.
A Good morning.
Q Do you recall being a juror in the Ervine Davenport
case?
A Yes I do.
Q And has anyone discussed with you the reason that
you are here today?
A No, they have not.

743
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
Q Is there anything about his appearance in court
that stands out in your mind?
A No.
Q Anything about how he presented himself stand
out in your mind?
A No.
Q Do you recall what the Defendant was wearing
during the trial?
A Not to my recollection.
Q Did you -THE COURT: I’m sorry, I missed it -- not to your
[Page 48]
recollection?
THE WITNESS: Correct.
THE COURT: Go ahead.
BY MS. BRUINSMA:
Q Don’t recall how he was dressed at this point?
A Um, no -- it was about three years ago, so it is kind
of hard to recall.

744
Q Did you notice whether the Defendant was restrained in any way?
A I do not remember noticing it. I remember a couple
of days in, another juror noticed it and pointed it
out.
Q I’m sorry, say that again?
A Another juror noticed it and pointed it out.
Q What exactly was said, do you recall?
A Just -- him saying, oh it looks like he is handcuffed.
Q Do you recall at what point in the trial that comment was made?
A I believe that it was a couple of days in, but I’m not
sure.
Q Do you recall where you were when the comment
was made?
A I believe that we were actually in the box.
Q In the box.
So you are referring to the jury box inside the
courtroom?
A Correct.

745
[Page 49]
Q And this -- do you recall whether this was during
the trial or if there was a break at the time or when
the comment was made?
A I do not remember.
Q Okay.
When -- do you recall who it was that mentioned that?
A No, I can’t think of it.
Q When that juror mentioned that, did he or she just
mention that to you?
A I believe that it was said to a couple of the jurors
sitting right next to me.
Q Okay.
And what, if anything, did you do at that point?
A Nothing. I just noticed it and then they came back
to talking -- the lawyers.
Q Okay.
So you did notice, after that comment being
made, that he was wearing a restraint?
A Yes.
Q And specifically was it a handcuff or -- did you notice anything else?

746
A Not to my recollection. I just remember that he was
restrained.
Q And at what part of his body was it that you noticed was
[Page 50]
restrained?
A I can’t think of it off the top of my head. I just remember the comment being made.
Q Okay.
Did -- did that have any significance to you, the
Defendant being restrained?
A No.
Q Did you presume that defendants are typically restrained in a courtroom setting?
A I just assumed.
Q That that was just kind of a standard-A Yes.
Q -- procedure?
A Correct.
Q Okay.
Did you think that there was any special reason
that the Defendant would be wearing them?

747
A No, just that he was in court.
Q Was it anything that you really gave much more
attention to other than just making note of it?
A No.
Q And again, do you recall at what point in the trial
that took place?
A No, I do not remember.
Q Okay.
[Page 51]
Do you relo -- recall how long of a period it was
that you would have noticed that?
A Not to my recollection.
Q Okay.
Did -- other than the discussion that you just
described for us in the jury box, did the jurors discuss the Defendant wearing handcuffs when deliberating?
A No.
Q Was it a topic that came up in the jury room at all?
A I believe they discussed it for a minute or two once
we got back that day, but nothing after that.
Q Okay.

748
And what would the discussion have been, do
you know?
A No.
Q Was it something that was discussed with the -- all
of the jurors as a whole?
A No. It was just a couple of people mentioning it.
Q Okay.
Did that issue affect your verdict at all?
A No.
Q Did it make you more inclined to find the Defendant guilty?
A No.
Q Did it make you think anything about the Defendant in general as a person?
[Page 52]
A No.
Q Okay.
And during the deliberations was that a topic
that was discussed?
A No.
Q When you -- when you were -- during the course of
deliberations, did you discuss the evidence that
was presented -- during the trial?

749
A Yes.
Q Is that what your verdict was ultimately based on,
was the evidence?
A Yes.
Q Okay.
Now, did you -- do you specifically remember
the Defendant wearing anything around his waist,
a belly chain?
A Not to my recollection.
Q And do you recall anybody making comment about
that?
A Not about a belly chain, no.
Q Okay.
And what about any leg shackles. Did you see
whether the Defendant’s legs were shackled or restrained?
A Not to my recollection.
Q And did anybody make a comment to you regarding that, the leg shackles?
A Not specifically leg shackles, no.

750
[Page 53]
Q When you say not specifically, are you referring
back to what we just discussed a minute ago, the
handcuff restraints?
A Yes.
Q And that is the only comment that you recall?
A Yes.
Q Okay.
Do you recall whether the Defendant was wearing an orange jumpsuit at any point during the
trial?
A I can’t recall.
Q Okay.
I don’t have any further questions.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning.
A Good morning.
Q Thank you, so much for coming.

751
During the first and part of the second day
when they picked the Jury, can you tell me where
you were sitting in the gallery?
A Um, I believe that I was on that side -Q On the right-hand side behind the officer?
A Correct.
Q Do you remember whether it was towards the front
or the
[Page 54]
back?
A I believe it was the second or third row.
Q From the front?
A From the front.
Q Okay.
And at any point during picking the Jury, did
you look up at Mr. Davenport and see a belly chain
around his waist at that time?
A It is possible, but I don’t remember.
Q Okay.
And when you were sitting in the jury box, do
you remember where you were sitting in the jury
box?
A I was in the second seat in the front.

752
Q On this end from the right?
A Correct.
Q Okay.
THE COURT: Again, further away from the witness box.
THE WITNESS: Yes.
THE COURT: At the end -THE WITNESS: At the far end.
THE COURT: Okay.
THE WITNESS: Correct.
BY MS. MEINBERG:
Q And when there was that discussion in the jury
box, was it
[Page 55]
during one of those stand up and stretch breaks -was it just during a lull in the action?
A I believe it was just a lull in the action. I can’t remember exactly who it was, but one of the jurors
had leaned over and I heard them mention it.
Q So you think that it was a juror that was sitting
behind you?
A Behind or to my right.

753
Q Okay.
THE COURT: I am just going to jump in and clar-

ify.

Did someone mention that to you while you were
sitting in the jury box, is that what you testimony is?
THE WITNESS: Correct.
sel.

THE COURT: Okay, thank you. Go ahead, Coun-

BY MS. MEINBERG:
Q And then at that point, you told the Prosecutor
that you looked over and saw that he was, indeed,
shackled?
A Correct.
Q Okay.
And did you ever hear any sound of chains
clanking or anything that might suggest that he
had something on his legs?
A Not to my recollection.
Q Okay.
[Page 56]
And you knew that Mr. Davenport was charged
with first degree murder, correct?
A Correct.

754
Q And did you notice the deputies in the courtroom
during the trial?
A Yes I did.
Q And you noticed that he was restrained?
A Correct.
Q What did you think that meant? Did you think that
he might be dangerous?
A I just assumed that it was part of the procedure.
Q Okay.
Did you think that he had done something
wrong?
A I assumed that he was being charged with something wrong.
Q Did you see anyone else in the courtroom shackled?
A No.
Q Okay.
Did any of the alternate jurors or any of the
other jurors sitting in the gallery during voir dire,
did any one of those jurors mention his shackles?
A No.
Q Thank you, very much.
A No problem.

755
THE COURT: Anything further, Counsel?
MS. BRUINSMA: No, your Honor.
[Page 57]
THE COURT: Thank you, sir. I am going to go
ahead and excuse you. Please don’t discuss this testimony with any of the other jurors; but we appreciate
your time.
THE WITNESS: Thank you.
(At 10:11 a.m., witness excused)
THE COURT: Before you have a seat ma’am, raise
your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MS. PADGETT: I do.
THE COURT: Please have a seat.
When you respond, you need to make sure that
you speak close to the microphone and right in the
end. If you move to either side, sometimes our recording system doesn’t pick up.
THE WITNESS: Okay.
THE COURT: The attorneys are going to have
some questions for you; the attorneys are different
than the attorneys who were present during the trial.

756
THE WITNESS: Okay.
THE COURT: Just so that is clear.
If you don’t understand something or don’t remember something, would you please make sure that
you tell us, we don’t want you to guess at anything.
Okay.
[Page 58]
THE WITNESS: Okay.
THE COURT: With that, please state and spell
both your first and last name, ma’am.
THE WITNESS: Jennifer Padgett, J-e-n-n-i-f-e-r.
Padgett is, P-a-d-g-e-t-t.
JENNIFER PADGETT
Called to testify at 10:12 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, Ms. Padgett.
A Good morning.
Q Thank you for being here this morning.
Do you recall being a juror in the Ervine Davenport case?
A Yes.

757
Q And has anyone discussed with you the reason that
you are here today?
A A little bit. We were trying to guess in the witness
room, but nothing -Q Okay.
Nobody has made any specific comments to
you?
A No.
Q Okay.
During the trial, do you recall the Defendant
being present in the courtroom?
[Page 59]
A Yes.
Q Is there anything about the Defendant’s appearance in court that stands out in your mind?
A No.
Q Is there anything about how the Defendant presented himself in court that stands out in your
mind?
A No.
Q Do. you recall what the Defendant was wearing
during the trial?

758
A I think that when we first came in, before we were
selected, I think that he had on jail, orange
jumpsuit. And then after that, he had on a suit -- a
shirt and tie.
Q Did that jail orange suit have any significance to
you?
A No. I mean, I knew why we were here and I assumed that is where he was.
Q Okay.
You would presume that with a murder charge
that the Defendant would likely be in custody?
A Right.
Q Okay.
And that is not something that you found unusual or surprising?
A No.
Q Okay.
Do you -- did you notice whether the Defendant
[Page 60]
was restrained in any way during the trial?
A No. I -- when we -- another juror had mentioned
something about that and that is why there was a
screen or a – what do you call those things -- a

759
curtain, I guess that -- before that, it didn’t even
really factor in -- I just didn’t think about it.
Q When that was mentioned to you, at what point in
the trial did that occur?
A I -- I really don’t know. It was probably in the middle of it at some point, just conversation, lunch
time.
Q Okay.
And you -- you recall it being at lunch that this
occurred?
A Or jury room -- I don’t really remember.
Q Okay.
The comment that was made, did it cause you
to then notice whether the Defendant was restrained in the courtroom?
A No, it really didn’t factor in to it.
Q Okay.
Do you specifically remember whether you
viewed the Defendant wearing handcuffs?
A No.
Q You do not remember or you did not see it?
A I didn’t -- I don’t recall seeing it.

760
[Page 61]
Q Okay.
Would it have surprised you for the Defendant
to be wearing handcuffs?
A While in the courtroom?
Q Yes.
A No, I guess not. I -Q Okay.
A I think that it would be uncomfortable.
Q When the juror mentioned that to you, did it have
any significance to you, the fact that he would have
been wearing handcuffs?
A No.
Q Did the fact that the Defendant wearing handcuffs
influence you at all?
A No.
Q You indicated that there was one juror that
brought that up with respect -- was it specifically
with respect to handcuffs then?
A He just said that he was restrained.
Q Okay.
A And did I notice it and I didn’t even know, no.

761
Q All right.
Was that anything that was discussed amongst
all of the jurors?
A I don’t think so; I just remember that one comment.
[Page 62]
Q Was that issue, restraints or handcuffs, discussed
during deliberations?
A No, not that I recall.
Q Was the fact that the Defendant was wearing
handcuffs or restraints -- did that make you more
inclined to find him guilty?
A No. The facts of the case did that.
Q So when you were in deliberations, did you rely on
the evidence that was presented to reach your verdict?
A Absolutely.
Q Did you specifically notice whether the Defendant’s legs were shackled?
A No.
Q And was that an issue that was brought to your
attention by anyone?
A No.

762
Q Did you notice whether the Defendant was wearing a belly chain that the handcuffs would have
been attached to?
A I don’t -- I don’t recall.
Q And was that anything that was specifically mentioned to you?
A No.
Q Was that anything that you recall being discussed
by the jurors during deliberations?
A No.
[Page 63]
Q Would any of those restraints make you more inclined to find the Defendant guilty?
A No.
Q You based your verdict on the evidence that you
heard?
A Yes.
MS. BRUINSMA: I don’t have any other questions.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning.

763
A Good morning.
Q Thank you so much for coming.
When the Jury was picked the first day and
part of the second day, can you tell me where in the
gallery you were sitting?
A Where was I sitting back here?
Q Yes.
A Uh, I think that I was over -- a couple of rows back
on this side, I think.
Q On the left side?
A Yes.
Q Okay.
And in the jury box, do you recall where you
were sitting?
A Right here.
[Page 64]
Q Front row.
A Front row.
Q The very end seat?
A Mmm hmm.
Q And was there another seat to your right?

764
A Oh, maybe I wasn’t -- I was right here somewhere.
Q Okay.
A I was here. Yeah.
Q So, when they were picking the Jury, did you ever
look over at Mr. Davenport? Could you see whether
his wrists were shackled at that point?
Q Um, he was much like he was today. He is taking
notes. I never noticed that he was restrained.
Q Okay.
Do you see the handcuff on his wrist now?
A Uh, yes I can.
Q Okay.
A But I did not notice that before. No, he was just –
I noticed that he was taking notes.
Q And were you -- were you ever one of the jurors
that had to approach the bench and talk to the
Judge about any special problem in serving?
A No.
Q And when the Jury stood up to take its breaks, did
you -since you were at this end, near the witness
stand, did you

765
[Page 65]
ever look over and notice that he had a handcuff on
his arm at that point?
A No, I never noticed it.
Q And even when he turned around to look at the
screen behind him, you didn’t notice it at that
point?
A No.
Q Okay.
Did you ever hear a clanking noise of chains,
possibly on his feet?
A No.
Q And you knew that he was charged with first degree murder, correct?
A Yes.
Q And during trial, did you see the deputies in the
courtroom?
A Yes, I did notice them.
Q And after the juror’s comment, did -- did you think
that he might be dangerous?
A Uh, well I -- I assumed that they were here for our
protection, but -- for everyone’s protection. But I
did not feel threatened by him, no.

766
Q Okay.
Did you see anyone else shackled in the courtroom?
A I think that there were some witnesses that came
in that
[Page 66]
might have been -- I’m trying to remember, it was
a while go.
Q And so since you were seated at this end here by
the witness stand, were you worried about your
safety with regard to those witnesses?
A I do recall one witness who made me a little nervous, but -- but I was very glad that there was a deputy right there.
Q There was a deputy right there?
A Absolutely.
MS. MEINBERG: Thank you.
MS. BRUINSMA: Just a quick follow up.
FURTHER EXAMINATION BY THE
PROSECUTION
BY MS. BRUINSMA:
Q Deputies in the courtroom, did you presume that
was pretty standard practice for a trial?

767
A Yes I did.
Q You didn’t think that was anything unusual to you
on that?
A No.
Q Okay.
MS. BRUINSMA: No other questions.
THE COURT: I have a question.
Do you recall which juror it was that mentioned
that the Defendant was restrained or that Mr. Davenport was restrained or where they were seated? That
is two questions.
[Page 67]
THE WITNESS: Right.
THE COURT:· That’s not fair.
THE WITNESS: I know. I am trying to remember.
It just seemed like it was -- I remember one saying,
well aren’t you nervous -- does it make you nervous at
all that we have all of these guards or whatever and I
said no, I am feeling alright about it.
And they said, well he is restrained and I said,
okay. Really, I didn’t notice that and they said, that is
why there is a curtain there so it doesn’t influence
what we think.
It was kind of that they were aware of the process;
it was not like they necessarily saw anything, it was

768
just -- I think that it was an assumption that that is
why it was there.
THE COURT: The curtain, is that what you are -THE WITNESS: Yeah, the black curtain.
THE COURT: And you are talking about the black
curtain around the table?
THE WITNESS: Right. Right, the skirting, I
guess.
THE COURT: Do you recall where you were at
when that conversation took place? I don’t know if you
were seated in the box or if it was during a break or
the lunch hour. If you don’t remember, then that is
fine, but
[Page 68]
THE WITNESS: I don’t remember. I just -- I kind
of remembered it, just was kind of like, oh, alright
then.
THE COURT: Was everyone around or just a few
of you during the conversation -THE WITNESS: I don’t remember -THE COURT: -- do you recall.
THE WITNESS: I don’t. I’m sorry.
THE COURT: Did the conversation take place
during deliberations?

769
THE WITNESS: No, it seemed like it was maybe
right towards the beginning.
THE COURT: Do you ever recall any conversation
during deliberations or anyone mentioning anything
about the Defendant being restrained or cuffed or
there being chains of any sort?
THE WITNESS: No.
Now, the only thing that I do recall is something
about when he testified that they were sure -- there
were more guards because he wasn’t.
THE COURT: Did somebody make that comment
to you or was that an observation?
THE WITNESS: I really -- I -- would really not notice those kinds of things, so I am guessing that somebody probably said something. But it wasn’t – it never
really factored in to it to me. I was sitting
[Page 69]
probably the closest of everyone and I think that is
why the comment was made was something about,
when he actually testified, did that make me nervous
and I said, not -- actually I made the comment to me,
he actually looks like a big teddy bear, I said, no he
doesn’t make me nervous.
THE COURT: Do -- what you just discussed then,
the comment about there being more guards, maybe,
in the courtroom when he testified -THE WITNESS: Mmm hmm.

770
THE COURT: Was that during deliberations or
was that made some other time, do you know?
THE WITNESS: I think that was probably about
the same time that he testified, you know.
THE COURT: Just so that we are clear.
THE WITNESS: No.
THE COURT: Again, I don’t want you to guess. If
you don’t know, let us know. When you say probably,
that always concerns us -- do you know if that occurred in deliberations or some other time and if you
don’t know, let us know. Or when -THE WITNESS: To my recollection, none of that
happened in the deliberations because we were pretty
focused -- we were actually really focused on the evidence and what was -- we tried to keep out what we
thought was -[Page 70]
our interpretations. We did want interpretations, we
wanted just the evidence and so we were trying to focus on that. So, I really don’t think there was any
point where we even mentioned -- I don’t think -- I am
trying to remember.
But it seems to me, and I know that is probably
not a good descriptor, but it was just, you know, a little
conversation or a little comment that didn’t really
weigh on my mind.

771
THE COURT: And just so -- you don’t recall who
made any of those -- those comments. It sounds like
there were a couple of comments to that affect.
THE WITNESS: I -- um -- if I had to guess
THE COURT: I don’t want you to guess.
THE WITNESS: I know.
THE COURT: Okay.
THE WITNESS: I won’t.
THE COURT: If you don’t know, then that is fine.
THE WITNESS: I don’t. I didn’t have conversations with many of our -- here and there. But there
were just a couple that I was more linked to than the
others because of the proximity, so -THE COURT: Where they were seated.
THE WITNESS: Right.
THE COURT: So -[Page 71]
THE WITNESS: Yeah.
THE COURT: I have asked a lot of questions, so I
am going to give the attorneys another opportunity to
follow up with anything.
MS. BRUINSMA: Just a couple of things, your
Honor, thank you.

772
BY MS. BRUINSMA:
Q Ms. Padgett, the conversation about the table
skirt, just so that I understand, is it your testimony
that was not during deliberations?
A No, it was not during deliberations.
Q Okay.
It was at some point other during the trial and
it was just -- was it a fairly brief comment then?
A Yes.
Q And once you heard that comment, did that make
you think anything in particular about the Defendant himself?
A No. I -- the charges -- the evidence, all the testimony that is what made me think of what I needed
to think or make the decision that I need to make.
That didn’t really influence me.
Q So the issue about the table skirt and the Defendant being restrained, that was not something that
impacted your verdict?
A So, I just figured it was procedure.
[Page 72]
MS. BRUINSMA: No other questions.
Thank you.
THE COURT: Ms. Meinberg.

773
FURTHER EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Just briefly, just so I understand. There were two
separate conversations; one was about the skirt
and one was about how close you were when he
was testifying?
A Yes.
Q Okay.
Was it more than two discussions or -A No. No.
Q -- just -A They were just more like flippant remarks. It
wasn’t like a lengthy, let’s discuss -Q Okay.
And if you recall, when Mr. Davenport did take
the stand, the Jury had to go out in the hallway for
a minute?
A Mmm hmm.
Q And then when you came back in he was sitting in
the witness stand. Did you guess
THE COURT: Hang on just a second. Yes you recall that?
THE WITNESS: Yes, I recall that.

774
[Page 73]
THE COURT: Go ahead.
BY MS. MEINBERG:
Q Where there any -- did you think anything or was
there any discussion -- oh yeah, they had to take
his cuffs off so that he could get up there?
A I think that is when the -- yeah, I think that is
when the comment came about. And I don’t think
that it happened before his testimony; I think it
was right after. That is why we had to go out because they needed to move him.
MS. MEINBERG: Okay. Thank you.
THE COURT: Anything further?
MS. BRUINSMA: No, your Honor. Thank you.
THE COURT: We appreciate your time here today
ma’am. I am going to go ahead and excuse you. Please
don’t discuss your testimony with any of the other jurors. Again, we appreciate your time and sorry we had
to bring you back.
THE WITNESS: Okay. Thanks.
(At 10:30 a.m., witness excused)
THE COURT: Right over here sir. Before you have
a seat, please raise your right hand.

775
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. RUZICK: I do.
[Page 74]
THE COURT: Please have a seat sir.
I am going to ask you to state and spell your first
and last name; but before you do that, a reminder that
you need to speak right into the end of that microphone. If you move to either side, our recording system
doesn’t pick you up as well and sometimes it is hard
to hear.
The -- I am going to turn it over to the attorneys.
The attorneys are different than the attorneys that
were present during the trial and when we go through
this process of asking you questions, if you don’t remember something, please don’t guess. Just let us
know that you don’t remember, we realize that the
trial was over years ago.
So, please state and spell your first and last name
for the record.
THE WITNESS: Thomas Ruzick. T-h-o-m-a-s R-uz-i-c-k.
THE COURT: Ms. Bruinsma.
THOMAS RUZICK
Called to testify at 10:31 a.m.;
testified as follows;

776
EXAMINATION BY THE PROSECUTION
BY MS . BRUINSMA:
Q Good morning, Mr. Ruzick, is it?
A Correct.
[Page 75]
Q Do you recall being a juror on the Ervine Davenport case?
A Yes.
Q Has anybody discussed you the reason that you are
here today?
A No.
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
Q Is there anything about his appearance in court
that stands out in your mind?
A No.
Q Anything about how he presented himself stand
out in your mind?
A No.
Q Do you recall what the Defendant was wearing
during the trial?

777
A Uh, if I -- if I believe correctly, he was wearing different clothes at different times. I remember him
wearing a tie -- that is about all I can remember.
Q Did you notice whether the Defendant was restrained in any way during the trial?
A No.
THE COURT: No he wasn’t or no you don’t remember?
THE WITNESS: Uh -[Page 76]
THE COURT: I just want to clarify the answers.
THE WITNESS: No, I don’t remember him being
restrained.
BY MS. BRUINSMA:
Q Did you -- do you remember -- I asked that. Did you
see if the Defendant was wearing handcuffs during
the trial?
A No.
Q Did anybody -- any of the other jurors mention to
you that the Defendant was restrained?
A No.
Q Did you notice whether the Defendant’s legs were
shackled during the course of the trial?

778
A No.
Q Do you recall whether the Defendant was wearing
an orange jump suit at any point during the trial?
A Now as I recall, I believe that he was always
dressed in civilian clothes, I guess you would call
it.
MS. BRUINSMA: I don’t have any other questions. Thank you.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning. Thank you for coming
When you first came into the courtroom on the
first day and they were picking the Jury, do you
remember
[Page 77]
where in the back rows you were sitting?
A I believe that I was on this side.
Q The left side -A Yes.
Q -- directly behind me.
A Yes.

779
Q And when you were in the jury box, do you remember which seat you were in?
A I believe that I was front row, I can’t remember
which seat, but I believe it was front row.
Q And at any point when you were sitting in the
back, did you ever look over at Mr. Davenport and
see a handcuff on his -- on his wrist?
A No.
Q And at any point when you took a stand and
stretch break or when you came in and out of the
box, did you ever look over and see a handcuff on
his wrist?
A No.
Q What about when he turned around to look at the
screen behind him?
A Nope.
Q Did you notice that he had limited movement at
the table? Did you notice that his left hand never
moved?
A No.
Q Okay.
[Page 78]
And did you hear anything like chains clanking
that might suggest that something was on his feet?

780
A No.
MS. MEINBERG: Great. Thank you. I have nothing else.
MS. BRUINSMA: I have no additional questions,
your Honor.
THE COURT: Do you ever recall any other juror,
at any point, bringing up or pointing out that the Defendant was restrained in any way?
THE WITNESS: No.
THE COURT: Did that ever come up during deliberations, to your recollection?
THE WITNESS: No, not to my recollection, no.
THE COURT: I don’t have any further questions.
Any follow up questions?
FURTHER EXAMINATION BY THE
PROSECUTION
BY MS. BRUINSMA:
Q Was the verdict based on the evidence that you
heard?
A Yes.
MS. BRUINSMA: No other questions.
MS. MEINBERG: No other questions.

781
THE COURT: Thank you, sir. We appreciate your
time. Sorry to have had to brought you back in. Please
don’t discuss your testimony with any of the other jurors
[Page 79]
that have been subpoenaed.
Thank you, sir.
(At 10:36 a.m., witness excused)
THE COURT: Before you have a seat sir, raise
your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. VANDERVEEN: Yes.
THE COURT: Please have a seat sir.
I am going to have you state and spell your first
and last name in a moment. Before I do that, make
sure that when you respond that you speak right into
the end of the microphone. If you move to either side,
sometimes our recording system doesn’t pick up as
well and it is difficult to hear your answer.
The attorneys are different than the attorneys
that were present during trial, as you may have noticed. They are going to ask you some questions. I may
have a couple of questions.

782
If you don’t remember something or you don’t recall something, please make sure that you tell us, we
don’t want you to guess at anything.
So, please state and spell your first and last name
for the record, sir.
[Page 80]
THE WITNESS: James VanderVeen, J-a-m-e-s Va-n-d-e-r-V-e-e-n.
THE COURT: Go ahead.
MS. BRUINSMA; Thank you, your Honor.
JAMES VANDERVEEN
Called to testify at 10:38 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, Mr. Vanderveen.
A Good morning.
Q Do you recall being a juror in the Ervine Davenport
case?
A Yes I do.
Q And has anyone discussed with you the reason that
you are to testify here today?
A No, they have not.

783
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Can you speak louder, please?
Q I sure can.
During the trial, do you recall the Defendant
being present in the courtroom?
A Sure.
Q Is there anything about the Defendant’s appearance in -- when he was in court that stands out in
your mind?
A In the two week period, I’d say no.
[Page 81]
Q Do you recall what the Defendant was wearing
during the course of the trial?
A Maybe somewhat, I could tell somewhat, but I
don’t know if you want to know that or not. I can
kind of guess. Maybe the first time I might have
seen him in an orange suit and then a short time
after street clothes. I think most of the time street
clothes. To be honest, I don’t recall 100 percent.
Q Did the orange suit have any significance to you?
A No. Well other than he was incarcerated.
Q Okay.
A I mean --

784
Q Did you find that unusual for a murder case that
the Defendant would be incarcerated?
A No.
Q Did you notice whether the Defendant was restrained in any way during the trial?
A You know, it is possible that first day and whether
I actually saw it or remember some of the other jurors discussing it -- we are talking three years ago.
But maybe he had some handcuff type things on or
ankle bracelets. I recall that might have been that
way, but you are talking three years ago.
Q I understand. It is obviously like you said, it has
been three years, so is it difficult to remember
every
[Page 82]
detail?
A Well I am sure that every detail -- I remember a
number of things, but every detail I may not remember exactly.
Q Okay.
Now, you indicate -- it is difficult for you to remember whether it was something you saw or you
heard another juror mention. Was there discussion
among the jurors about handcuffs?
A I don’t know if there was discussion. It might have
been -- if there was discussion, it might have been
something like, you know, I saw handcuff or

785
something on him. I—it seems as though he may
have had them on, I might have saw them. I am a
little fuzzy on that.
Q Okay.
Do you recall at what point during the trial this
would have been, that a comment was made?
A No I don’t.
Q Was the fact that the Defendant was wearing
handcuffs have any significance to you?
A None.
Q Would you presume that defendants typically wear
handcuffs during the course of a trial?
A Since I didn’t do this every day, I didn’t think that
it was unusual.
Q Did the fact that the Defendant was wearing handcuffs
[Page 83]
influence you at all as a juror?
A No.
Q You indicated that there was some comments
made by other jurors about the handcuffs. Was
there discussion about that?
A No, I think -- you know, my guess would be that
everyone of us, this was the first time that we had

786
gone through this type of situation and it is unusual to see that. You are seeing it first hand and
you are seeing it as opposed to seeing it on TV or
seeing it in real.
Q So while it wasn’t something you thought unusual
for a courtroom, you are not necessarily used to a
courtroom setting and so it was something that
was commented on. Is that fair to say?
A I would be guessing so, but that was probably the
nature of it.
Q Um, did -- did the comments about handcuffs influence your verdict at all?
A If he did, indeed, have handcuffs on, it was only for
a, I think, the first few minutes that I might have
saw him; so I would say no, that it didn’t influence.
Q Do you recall the handcuffs being discussed by the
jurors during deliberations?
A No.
Q Did you notice whether the Defendant was wearing belly
[Page 84]
chains that the handcuffs would have been hooked
to?
A You are asking me, did I notice that?
Q Yes. Did you see that?

787
A I believe that I might have seen that.
Q Do you recall at what point during the trial?
A Well the only time, if I did see anything, was during the first few minutes or the first few hours of
the whole process.
Q During voir dire when they were selecting the
Jury?
A Oh boy -- I don’t recall whether I could have seen
that from out there in the seating area back there
or not. So, whether I had to say I seen that, I probably would have saw it here if -- I don’t know. I
can’t answer that question with surety.
THE COURT: Let me just jump in -- your recollection is that you don’t remember when you saw it, but
it was at the beginning of the trial; is that what you
are telling us?
ber.

THE WITNESS: I believe that is what I rememTHE COURT: All right.

Then let me also ask a question too, because -- I
think that you were asked a question and the question
was something in the affect that you indicated that
there were comments or conversations about the restraints. And I just want to clarify.
[Page 85]
First of all, do you remember whether -- do you
remember whether someone made a comment or

788
conversation about any type of restraints whether
they wore leg or ankle restraints or belly restraints or
handcuffs -- first of all, let me ask you that. Do you
remember whether a comment was made by any other
juror?
THE WITNESS: I believe that there was a comment, but I don’t remember any conversation taking
place about it. They just, did you see handcuffs, type
of deal.
THE COURT: All right.
Let me ask you the next question. Do you remember whether there was more than one comment made
or don’t you know one way or the other?
THE WITNESS: Say that again, please.
THE COURT: Do you remember if there was more
than one comment made?
THE WITNESS: There was little comment made.
I just remember a comment or so, it wasn’t continuous
or ongoing, no.
THE COURT: Do you remember which juror made
the comment?
THE WITNESS: No.
THE COURT: All right.
I’m sorry, go ahead Ms. Bruinsma.
MS. BRUINSMA: Thank you, your Honor.

789
[Page 86]
BY MS. BRUINSMA:
Q Do you recall whether you saw that -- whether the
Defendant’s legs were shackled?
A You are asking me if I thought I saw that?
Q Do you remember seeing that?
A That his legs were?
Q His legs being shackled.
A I believe that I did, but I am not going to bet my
life on it. I don’t know. I thought he was, but today
there is a curtain there, so how I would have, I
don’t remember.
Q If his legs were shackled, would that have any significance to you?
A No.
Q Would that have affected your verdict at all?
A No.
Q Was that something, the leg shackles, that was discussed by the jurors?
A Not discussed that I recall, no.
Q Do you recall any comments being made?
THE COURT: About the leg shackles?

790
BY MS. BRUINSMA:
Q About the leg shackles?
A It is possible that something was commented on
maybe when we were walking down the aisle that
he had shackles on or that kind of thing. That is
pretty much it. There was no
[Page 87]
discussion that I recall taking place to that.
Q Would the fact that the Defendant had leg shackles
on, had handcuffs on, had a belly chain on mean
anything to you?
A In what way?
Q As far as your verdict? Did that affect your verdict?
A No.
Q Was your verdict based on the evidence that you
heard in court?
A That is correct.
Q Do you recall any discussion during deliberations
about leg shackles?
A I don’t recall any discussion taking place at that
time.
Q Do you recall any discussion during deliberations
about handcuffs?

791
A I don’t recall any discussion taking place about
handcuffs.
Q Do you recall any discussion during deliberations
about belly chains?
A No I do not.
Q To your recollection, the deliberations were based
solely on the evidence that was presented?
Q That would be correct.
MS. BRUINSMA: I have no other questions.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
[Page 88]
Q Good morning.
A Good morning.
Q Thank you so much for coming in.
Now when the Jury was being picked, do you
remember where you were sitting in the gallery?
A Yeah, I believe over here -- on my left side towards
the back there.
Q All right.

792
And there were actually three sessions, the
morning, the afternoon and a second day?
A I was going to say, I didn’t think that it took place
on the first day, that is correct.
Q Did you always sit in the same spot?
A I don’t recall, but not necessarily.
Q Okay.
When they were picking the Jury, did you ever
look over at Mr. Davenport and see the belly chains
during voir dire?
A When they were picking the Jury?
Q Yes.
A That is when maybe I seen it from back there. I am
not sure, I’d have to go back and look at this point
right now, to be honest.
Q Okay.
And when you were sitting in the box, can you
[Page 89]
tell me where you were in the box?
A Yeah, I believe that I was in the back row in the -second or third chair from your right.
Q Okay.
At the far end, the second or third chair?

793
A Yeah, I was towards the middle or right side of that
upper row.
Q And at any point, did you hear the clanking of
chains that might also indicate that he had something on his legs?
A I don’t recall that happening, no.
Q And did you notice that there were deputies in the
courtroom?
A I do recall that.
Q Do you recall how many deputies?
A It seems like there was one at a door and maybe
one sitting over there and maybe one in the back.
Seems like there was at least two, possibly three.
Q Okay.
And you knew that Mr. Davenport was charged
with murder one, right?
A Yes I did.
Q And given that you saw the restraints at some portions of the trial, did you think that he might be
dangerous?
A Well I would assume that, yes.
Q Okay.

794
[Page 90]
Did you think that he had done something
wrong and that is why he was shackled?
A Well it was a murder trial, correct?
Q Yes.
Okay.
Did you see anyone else shackled in the courtroom?
A Not that I recall.
Q Did you feel safer, as a juror, knowing that he was
shackled?
MS. BRUINSMA: Your Honor, I guess that I
would object to that question. I don’t know that it is
really relevant to the questions that we are looking -THE COURT: I’ll allow it.
MS. MEINBERG: Thank you.
THE WITNESS: Allow what, an answer?
THE COURT: You can answer.
THE WITNESS: State your question again,
please.
BY MS. MEINBERG:

795
Q Did you feel safer knowing that Mr. Davenport was
charged with murder one and knowing that he was
shackled?
A I wasn’t fearful, but would I have been safer? Yeah.
MS. MEINBERG: Thank very much.
THE COURT: Any further questions.
MS. BRUINSMA: Just a couple of questions.
[Page 91]
FURTHER EXAMINATION BY THE
PROSECUTION
BY MS. BRUINSMA:
Q Just a second ago you indicated that you made
some assumptions that the Defendant was dangerous. Is that based on the fact that he was charged
with murder?
A I would think so, yes.
Q Did the fact that he was shackled impact that assumption?
A State that again, please.
Q The fact that Mr. Davenport was shackled, did that
-- did that alone make you think that he was a dangerous person?

796
A You know, I don’t know if it would necessarily
make him more dangerous, maybe that was protocol. I guess I would have thought that was protocol.
Q So you wouldn’t think it unusual for somebody in
the course of a trial to be restrained?
A I wouldn’t think so, no, not for -- not for the type of
crime you are talking, no.
Q And again, the fact that there was any restraint
used on Mr. Davenport, did that influence your
verdict in any way?
A No, it did not.
MS. BRUINSMA: No other questions.
THE COURT: Anything further, Counsel?
MS. MEINBERG: Nothing, Judge. Thank you.
THE COURT: We appreciate your time. We are
sorry that we had to bring you back in for this. I am
[Page 92]
going to go ahead and excuse you. Just make sure that
you don’t speak with anyone -- any of the other jurors
about your testimony.
THE WITNESS: No.
THE COURT: Thank you, sir.
THE WITNESS: Yep.

797
(At 10:53 a.m., witness excused)
THE COURT: Before you have a seat sir, please
raise your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. VANDERMEULEN: Yes.
THE COURT: Please have a seat sir.
I am going to ask you to state and spell your first
and last name in a moment. But before I do that, just
a couple of things.
Make sure that you speak right into the end of
that microphone. If you move to either side, sometimes the recording equipment doesn’t pick it up so
well and the microphone doesn’t pick it up and it is
difficult to hear. So, just so that you know that.
We are going to ask you some questions. If you
don’t remember something, please just make sure that
you let us know; we don’t want you to guess at something.
[Page 93]
THE WITNESS: Mmm hmm.
THE COURT: And you might notice that the attorneys are different than the attorneys that were present during the trial; I’ll just point that out.

798
With that, please state and spell both your first
and last name, sir.
THE WITNESS: Thomas VanderMeulen, T-h-om-a-s V-a-n-d-e-r-M-e-u-l-e-n.
THE COURT: Ms. Bruinsma.
THOMAS VANDERMEULEN
Called to testify at 10:55 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, Mr. VanderMeulen. Do you recall
being a juror on the Ervine Davenport case?
A Yes.
Q Has anybody discussed the reason that you are
here today?
A No.
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
Q Is there anything about his appearance in court
that stands out in your mind?
A Pardon.

799
Q Is there anything about the Defendant’s appearance, when he
[Page 94]
was in court, that stands out in your mind?
A No.
Q Is there anything about how the Defendant presented himself that stands out in your mind?
A No.
Q Do you recall what the Defendant was wearing
during the course of the trial?
A No.
Q Do you recall if the Defendant was restrained in
any way during the trial?
A No.
Q Did you see whether the Defendant was wearing
handcuffs during the trial?
A No.
Q Do you recall any other jurors mentioning handcuffs?
A No.
Q Did you see whether the Defendant was wearing a
belly chain that would have been hooked to the
handcuffs during the trial?

800
A No.
Q Do you recall any other jurors mentioning belly
chains?
A No.
Q Did you see whether the Defendant was wearing
leg shackles during the trial?
A No.
[Page 95]
Q Do you recall any juror mentioning leg shackles?
A No.
Q Did the issue of restraints come up at all during
deliberations?
A No.
Q Do you recall there being any comments at all with
regard to restraints?
A No.
MS. BRUINSMA: I don’t have any other questions.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning.
A Good morning.

801
Q Thank you very much for coming in.
When they were picking the Jury on the first
and part of the second day, can you tell me where
you sitting in the back?
A Um, it would have been the second row on the right
hand.
Q On the right-hand side behind the officer?
A Yes.
Q Did you ever look over at Mr. Davenport, especially
when his lawyer was up here, did you ever see belly
chains when he was sitting in the chair?
A No.
Q Where in the jury box were you sitting if you recall?
[Page 96]
A Um, about the third row in the back -- third chair
in the back.
Q Third chair in the back, the second row?
A Mmm hmm.
THE COURT: Yes?
THE WITNESS: Yes. I’m sorry.
MS. MEINBERG: Thank you. I have nothing further.

802
THE COURT: Anything further?
MS. BRUINSMA: No follow up, your Honor.
THE COURT: Thank you, sir. We appreciate your
time. Please don’t discuss your testimony with any of
the other jurors, but you are excused.
THE WITNESS: Thank you.
(At 10:57 a.m., witness excused)
THE COURT: We have one more.
Before you have a seat sir, raise your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. WHATELY: I do.
THE COURT: Please have a seat sir.
We have some questions that we want to ask you.
But before we get into that, just a reminder or just to
let
[Page 97]
you know. You need to speak right into the end of that
microphone. If you speak -- if you turn to either side,
sometimes the recording system doesn’t pick it up and
it is difficult to hear in this court. So, sometimes the
microphone won’t pick it up. That is number one.

803
Number two, the attorneys are going to have some
questions. If you don’t know or don’t remember something, please let us know; we don’t want you guessing
at anything. We realize that the trial was a number of
years ago, so just let us know that.
The attorneys are, obviously, different than those
attorneys that were present at the trial, you may have
observed that, but I’ll turn it over to them in a second.
First, I need you to state and spell both your first
and last name for the record, please.
THE WITNESS: Michael Whately. M-i-c-h-a-e-l
W-h-a-t-e-l-y.
MS. BRUINSMA: Thank you, your Honor.
MICHAEL WHATELY
Called to testify at 10:59 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, is it Whately?
A Yes ma’ am.
[Page 98]
Q Good morning, thanks for being here.
Do you recall being a juror in the Ervine Davenport case?

804
A Yes ma’am.
Q Has anyone discussed the reason that you have
been asked to court today?
A No ma’am.
Q During the trial, was the Defendant present in the
courtroom?
A Yes ma’ am.
Q Was there anything about his appearance that
stands out in your mind?
A He is a big guy, but -Q Is there anything about how he presented himself
that stands out in your mind?
A No ma’am.
Q Do you recall what the Defendant was wearing
during the trial?
A Well it depended on the day.
Q Did he change clothes during the course of the
trial?
A Yes.
Q Are there any -- anything that he was wearing that
stands out in your mind?
A Well he started out in the orange jump suit and
then he changed into dress pants, shirt and tie.

805
[Page 99]
Q All right.
A Then there was the one day when they were showing the scar on his arm, he just had a T-shirt on.
Q Was there anything about the orange jump suit
that had significance to you?
A No.
Q Did it mean anything at all to you?
A Well just wearing the orange jump suit just meant
that he was a County -- to me he was a person that
was in the County Jail.
Q Not anything that you found to be unusual given it
was a murder charge?
A No.
Q Okay.
Did you notice whether the Defendant was restrained in any way?
A Yes I did.
Q What did you notice?
A He had something on his feet.
Q Do you know what was on his feet?
A Well it looked like shackles from what I could see.

806
Q When did you observe this?
A Near the beginning.
THE COURT: I missed it, during the end or -THE WITNESS: Near the beginning.
[Page 100]
THE COURT: -- end, okay.
BY MS. BRUINSMA:
Q Near the beginning, would that have been during
voir dire when the Jury was being selected?
A Yeah, it was more there. I don’t recall him being
restrained -- having restraints on his feet or anything like the second day or after that.
Q So it was the first day?
A Yes.
Q And where were you in the courtroom when you
saw that?
A I am trying to recall. I don’t recall if I was sitting
back there or if I was in the jury stand.
Q When you say back there, you are referring to the
back gallery portion of the courtroom?
A Yeah, before they did the jury selection.
Q Before you would have been placed in the jury box
up front?

807
A Yes.
Q Okay.
And seeing the leg shackles, did that have any
significance to you?
A No, just -- I mean, no, it did not. I am used to seeing
incarcerated people in -- shackled.
Q When you say that you are used to that; have you
been around the courtroom before?
A Not the courtroom, no. One of my previous jobs, I
was a
[Page 101]
communications technician and I did a lot of twoway radio work for public safety, the police and
fire. And often times I would have to go into the
jails to work. So, I would see people shackled in
various ways, so it didn’t bother me, no.
Q Um, how long of a time period was it that you were
able to see the leg shackles?
A Not very long.
Q A brief glimpse or longer than a glimpse?
A Well it was longer than a brief glimpse, yeah. It
was -- pretty much -- from where I was sitting and
I don’t recall where I was sitting that the whole
time that I was sitting there I could see the shackles on his feet.

808
Q Um, did seeing the shackles influence your verdict
in any way?
A No.
Q Do you recall any of the other jurors mentioning
the shackles, the leg shackles?
A No, none of the other jurors mentioned it to me. I
think that I pointed it out to the juror sitting next
to me.
Q Was there a discussion about it?
A Not really.
Q Just a comment.
A A comment.
Q Was there ever discussion during the deliberation
process
[Page 102]
that the Defendant was wearing leg shackles?
A Not that I recall, no.
Q When the deliberations were going on was it the
evidence that was discussed?
A Yes.
Q Was your verdict based on evidence that you
heard?
A Yes.

809
Q Did seeing the Defendant in shackles influence
your verdict in any way?
A No ma’ am.
Q Now, did you also ever notice whether the Defendant was wearing handcuffs?
A I do recall one time, but I think it was either bringing him in or taking him out. I do recall handcuffs
at one time. Exactly when, I don’t recall when that
was, but -Q Did seeing handcuffs have particular significance
to you?
A No ma’am.
Q Did you attribute any specific meaning to the fact
that he was wearing a handcuff?
A Just that he was a County prisoner and -Q Did you ever discuss -- let me rephrase that.
Did you ever mention to another juror about the
handcuffs?
A Not that I recall no.
Q Do you recall there being discussion amongst the
jurors
[Page 103]
about the handcuff -- about handcuffs?

810
A No, I don’t.
Q Do you recall handcuffs being discussed during deliberations at all?
A No.
Q Do you recall whether the Defendant was wearing
a belly chain around his waist that the handcuffs
would have been attached to?
A I do not recall that, no.
Q Do you recall any other jurors mentioning belly
chains?
A No.
Q Maybe not that particular term, but that he was
restrained around the waist?
A I knew what you meant, yes.
Q And you don’t recall any comments about that?
A No.
Q Was that anything that was raised during deliberations?
A No.
Q Were the deliberations focused on the evidence
then?
A Yes ma’ am.
Q And was your verdict based only on the evidence?

811
A Yes ma’am.
MS. BRUINSMA: I don’t have any other questions.
THE COURT: Ms. Meinberg.
EXAMINATION BY THE DEFENSE
[Page 104]
BY MS. MEINBERG:
Q Good morning.
A Good morning.
Q Thank you very much for coming in.
So you don’t -- when they were picking the Jury,
they did it the first day and the second day. Do you
recall on any of those occasions where you were sitting in the back?
A I sat in the back closer to the window, like -- I think
the third one from the back.
Q Third from the back?
A Second or third from the back, yes.
Q Okay.
And do you remember where in the jury box you
were sitting?
A One of these two chairs. I was in the front row.

812
Q The front row.
Okay.
Near the witness stand, but you don’t remember which seat exactly?
A No.
Q Do you remember the Defendant, Mr. Davenport,
taking the stand and testifying?
A Yes.
Q Do you remember right before then the Jury had
to go out in
[Page 105]
the hallway?
A Yes.
Q And do you remember when you came back in that
he had gone from counsel table up to the witness
stand?
A Yes.
Q And did you ever guess as to why you had to go out
in the hallway?
A No, not really.
Q Given that you were sitting close to the witness
stand, relatively, close, did you have any safety
concerns when he was up there testifying?

813
A No.
Q Did you realize when he was up there testifying
that he was not handcuffed?
A No.
Q No, you did not realize it.
A I did not realize that, no.
Q Was there a deputy standing next to him when he
was testifying?
A There was -- I think that there was a deputy right
here, but I don’t remember for sure.
Q Did that make you feel safer that a deputy was
standing right there?
A It didn’t have any -Q You realized that Mr. Davenport was charged with
first
[Page 106]
degree murder?
A Yes ma’ am.
Q And during the course of the trial, did you see deputies in the courtroom?
A Yes.
Q Do you know how many?

814
A There was at least three, I think, at all times or
more.
Q And you testified that you realized that he was
shackled at the legs and the wrist?
A I did see that.
Q Did -A But not all the time.
Q Did you think that he might be dangerous?
A Based on the charges he could be dangerous, but I
didn’t think that he would do something in here.
Q And is that because you saw the deputies and the
shackles?
A More the deputies.
MS. MEINBERG: I have nothing further.
Thank you.
THE COURT: Any further questions, Counsel?
MS. BRUINSMA: No further questions, your
Honor.
Thank you.
THE COURT: Thank you, sir, we appreciate your
time.
I am going to excuse you. Please just don’t

815
[Page 107]
discuss your testimony with any of the other jurors,
but we appreciate your time. Sorry to have to bring
you back here again, sir. Have a good day.
THE WITNESS: Thank you.
(At 11:11 a.m., witness excused)
THE COURT: Counsel, will you approach?
(At 11:12 a.m., bench conference)
THE COURT: We are still on the record, but I
guess what I am going to ask you both to do is since
he is here, go sit at various places in the jury box. I
think that it is clear from the testimony that you can
probably see. But I would just like everyone’s agreement on the record that you can see the cuffs depending on where you are sitting.
MS. BRUINSMA: (Inaudible, speaking too softly)
that we need to do that because I think they can tell
us what they saw or didn’t see and we are kind of adding more speculation as to what may or may not have
been visible.
THE COURT: Okay.
Let me do it this way. If you don’t want to, you
don’t have to. But I am going to put my observations
on the record because there has been a request -- by
the Defense to bring in an expert. I don’t think that is
necessary.
I think that for economic reasons and for

816
[Page 108]
efficiency for time, I would hope that we could agree
to it and that it why I am bringing this up and asking
you to do that. I can’t make you do that, but I would
appreciate it if you would just sit and put your observations on the record.
MS. BRUINSMA: Okay.
MS. MEINBERG: Jury box and the back.
THE COURT: I’m sorry.
MS. MEINBERG: Jury box and the back.
THE COURT: That’s fine too. Good point. I wasn’t
going to do that, but good point, given the testimony.
So, with that being said, any objections to doing
that?
MS. BRUINSMA: I guess I don’t have a specific
objection to it.
THE COURT: Again, you don’t have to do it, but
it sounds like you are willing to do it.
MS. MEINBERG: Yes I will.
THE COURT: I think that it is appropriate under
the circumstances. So, if you want to participate you
can and if you don’t want to, then I guess you don’t
have to.
MS. BRUINSMA: In that case, if I could just put
my rational on the record and --

817
THE COURT: You sure can.
[Page 109]
Okay.
(At 11:14 a.m., bench conference concluded)
THE COURT: All right.
Counsel, let’s just-do it this way.
Those are the jurors that we had in today. There
are three others and for various different reasons, I
think that one of them had a preplanned vacation and
I think that two had medical issues -I’m wrong apparently.
One medical and two preplanned vacations per
Ms. Johnson who has been speaking with them.
So, we were going to, depending on what happened today and whether we needed them to come
back or not. I had excused them for the day, but told
them they were still under subpoena and we would
work with them another day if we could -- if we needed
them.
And I am telling you right now, that based on the
testimony, we need them. And so we will try to work
with them and Counsel on another day to continue the
hearing. I think that it is important to hear what their
testimony and recollection is.
We also just had a conversation at the bench.
There has been a request by the Defense for -- for

818
necessary expenditures or amount to be allotted to the
Defense for an expert to testify, again, if necessary,
with
[Page 110]
regards to the angle of the cameras and whether or
not the jurors could see Mr. Davenport’s handcuff or
shackles or what not.
What I had asked Counsel to do is to just take a
moment, since we have Mr. Davenport here, and since
he has a cuff -Do you have a belly shackle on right now, sir?
THE DEFENDANT: Yes.
THE COURT: Yes.
So, similar to what he would have had at the time
of trial.
I don’t know, does he have ankle shackles on too?
MS. MEINBERG: Yes.
THE COURT: So, I would just ask Counsel to observe Mr. Davenport from where he is at, both from
the jury box and Ms. Meinberg made a good point too,
from the -- from the galley just to see what observations they could make -MS. BRUINSMA: And I guess -THE COURT: -- with regards to the restraints.

819
MS. BRUINSMA: And if I could just make -- place
my position on the record with respect to that.
THE COURT: Yes.
MS. BRUINSMA: I think that is not a necessary
step to take because what we are looking at is whether
the
[Page 111]
jurors were able to see him and that any determination is going to be made on what the jurors say and
not any speculation about what may or may not been
able to be viewed throughout the courtroom.
I understand the Court’s position with respect to
doing that and not wanting to bring in an expert,
which I also think would be simply more speculation
that it is what the jurors say and nothing more. But
that is -- that is my position and objection to that. I
just wanted to place that on the record and I understand the Court’s ruling.
THE COURT: Okay.
Any objections to doing that Ms. Meinberg?
MS. MEINBERG: No, your Honor.
THE COURT: And we did discuss that objection
at the bench and I indicated that because -- based on
-- given the testimony that we did have some testimony that different jurors were able to see different
restraints, I’ll indicate that; and given the Defense’s
request to have an expert -- possibly have an expert
come in and give angles and given expert testimony

820
with regards to what you could or couldn’t see from
the jury box or what not.
I indicated to Counsel that they have made that
request and I would ask Counsel to just make these
observations and see if we could all stipulate to one
thing or another; so that I wouldn’t necessarily have
to address
[Page 112]
that issue or allow costs for that expenditure or to
have an expert come in.
So, given that ruling, I think that Counsel is willing to do that, again, over your objections; I understand that.
So, with that, I would just ask that Counsel take
a moment and then we will have a brief conversation
and see if we can stipulate as to whether or not you
can view the restraints -- and I will indicate, Counsel,
I don’t know whether the curtain -- we now have a
black curtain up around the tables, that has been
there a number of years now; but I don’t know if it was
there at the time of the trial. In looking at the photographs, I will say, honestly, it does not appear that the
curtain was there. I don’t know for sure, without going
back and looking at the video; but I did make that observation when I was looking at the photographs. And
I know that we had testimony from one juror -- I’ll
have to go back and look at my notes again, but I believe that there was one juror who indicated that he
thought that he could see the ankle restraints from
the jury box. Again, I’d have to go back and look at my
notes -- I thought that is what he said -- and review

821
his testimony again on that issue. He may have referenced when he was seated back in the galley, but I
thought that is what he said.
[Page 113]
So, with those comments, that is why I am asking
Counsel to participate in doing this. We are still on the
record and I’ll let you just go have a seat in the jury
box or take various seats from different perspectives.
And we’ll address a possible stipulation in a moment.
MS. BRUINSMA: Wow, there is not a lot of room
up here.
THE COURT: There is not a lot of room.
And I guess that I’ll also indicate that this not typical, but given the request and given the hearing, that
is why I am asking you to do this. And I won’t ask you
to do jumping jacks or pushups or anything like that.
MS. MEINBERG: Thank you, Judge.
THE COURT: They are heavy doors.
Counsel, would you please approach?
(At 11:23 a.m., conference at the bench)
THE COURT: I don’t know if you want to go off
the record, this is still supposed to be recorded during
a bench conference. But do you want to go off the record and discuss that or -MS. BRUINSMA: What do you --

822
I don’t care whether it is on the record or off the
record.
THE COURT: Okay.
Okay.
[Page 114]
So, -- well then let me ask you. Were you able to
observe -- I’ll ask you first Ms. Bruinsma.
Were you able to observe the -MS. BRUINSMA: Yeah, the -- yeah, depending on
how he is positioned and where the jurors are and the
-THE COURT: And where you are seated.
MS. BRUINSMA: -- podium.
THE COURT: Right.
MS. BRUINSMA: You can -- there are areas of the
courtroom -THE COURT: That you can see.
MS. BRUINSMA: -- and the jury box where you
can see.
THE COURT: Right.
MS. BRUINSMA: Same with the gallery, depending on who is sitting in front of you.
THE COURT: Right.

823
MS. BRUINSMA: All of those factors.
THE COURT: So we can stipulate to that then.
MS. MEINBERG: Yes.
THE COURT: Depending where you are seated
and how he is positioned -MS. MEINBERG: Well and I would also like to
stipulate about the aisle because I noticed -- like when
you were doing voir dire. If you called a juror and they
[Page 115]
walked up the aisle, you could see -- when his right leg
was shackled, you could see the cuff dangling down
and you could see the wrist shackle from the aisle.
THE COURT: So, again, depending on who is
looking where -MS. MEINBERG: Right.
THE COURT: And you can certainly indicate for
the record. I appreciate that, so we can put that on the
record then.
All right.
MS. BRUINSMA: Did we want to put anything on
the record about the positions of the video cameras or
do we not care about that at this point?
Just that they are not at the same vantage point
that --

824
THE COURT: They (inaudible). I suppose that we
could get a tape measure, but I could guess that we
could stand -- how tall are you?
MS. BRUINSMA: Five-four.
THE COURT; Why don’t you go stand and see if
we can -MS. MEINBERG: Oh, God, I am so bad at that.
THE COURT: Okay.
MS. MEINBERG: What is that, two feet above her
head.
[Page 116]
THE COURT: I am going to say eight -- I think it
is about three, maybe.
MS. MEINBERG: Okay.
THE COURT: So probably -- again, without measuring -- what would you say?
MS. BRUINSMA: I am very horrible with distances, but I -THE COURT: I am going to say eight or nine feet.
MS. BRUINSMA: I would think that is a good estimate.
THE COURT: A fair estimate. Again, we could get
a tape measure and we could -- I’ll also explain where
the camera is. I think that the camera probably has a

825
better angle, but you can certainly see and I think that
is really the main issue.
MS. BRUINSMA: Right.
THE COURT: Okay.
(At 11:26 a.m., bench conference concluded)
THE COURT: All right.
Counsel, first of all let me say, I appreciate you
participating in that exercise.
We have had some discussions and I think that
everyone is in agreement -- and I will indicate to you
too that I indicated to you in chambers earlier, that
yesterday I did go to the jury box to see if -- what,
maybe you could
[Page 117]
see at this end. I only stayed at this end. And I felt
that you could probably -- you probably would have
been able to see the cuffs depending on where Mr.
Davenport was, his seat and so forth. It is one of the
reasons why I asked you to see if we could just agree
on something too.
And my understanding and I’ll let you put anything further on the record, is that everyone is in
agreement -- all attorneys are in agreement and the
Court is in agreement, that depending on where you
are at in the jury box and depending on the position of
Mr. Davenport and he is a little bit back from the table
now. I certainly think that would have been something that he probably would have done during the

826
trial is kind of moved up and back, you know, changed
his position periodically during the trial. So, I think
that he is in a reasonable position here. That depending on where you are at in the jury box, depending if
you are standing or sitting and where Mr. Davenport
is, that you can observe the handcuff at different
places in the jury box I think. I will also indicate too
that some of the pictures show that he had files in
front of him, but again, those could very well have
been moved during the trial.
So, I will state that for the record.
I did not got back to the galley, but I think that
Counsel probably -- my understanding is that Counsel
[Page 118]
is going to indicate their observations from the galley
and that there is an agreement, again, depending on
where you are seated, standing, seated, possibly walking down the aisle, you might be able to see different
restraints.
So, with that, I’ll -- I’ll turn it over to Ms. Bruinsma, first of all, with regards to whether or not that
is an accurate statement of what we discussed and anything else that you want to add.
MS. BRUINSMA: Yes, thank you, your Honor.
That is accurate with respect to the back of the
courtroom where the jurors would have been seated
with voir dire. That depending on where you are sitting and who is sitting in front of you and how the Defendant’s chair is positioned, where Defense Counsel

827
is positioned, where the deputy may have been positioned that there are locations in which you could possibly view the Defendant’s handcuffs or belly chains
through the side of the chair.
But again, as I indicated earlier, I believe the jurors’ testimony is what will be controlling that.
THE COURT: Appreciate that.
Anything else, Ms. Meinberg?
MS. MEINBERG: Yes, your Honor.
He -- right now today he -- his right hand is unshackled and so the hand cuff is dangling down on the
right side of his waist. And that side of the chair is
[Page 119]
open.
So yes, depending on if Ms. Eifler was sitting here
or standing at the lectern, I noticed that from especially on the right-hand side of the galley, you can see
the handcuff dangling and the left hand wrist shackle
in every row except for the back row. I could not see it
in the back row.
It was more difficult to see on the left-hand side,
but there are some places where you could see.
And I noticed, especially walking up the aisle, you
had a good view of both the dangling handcuff and the
shackle on the left hand.
Do you also want to discuss the jury box?

828
THE COURT: If you have anything else that you
want to indicate with regards to the jury box, go
ahead.
MS. MEINBERG: Yes.
I noticed from every seat in the jury box, whether
on the far end by the fitness stand or the far end by
the side of the lectern, depending, of course, whether
someone is standing at the lectern, I could see the left
wrist shackle. I couldn’t see the belly chain, but I could
see the left wrist shackle, whether I was standing or
sitting.
But again, it depends on whether somebody is
standing at the lectern and blocking some juror’s
views.
[Page 120]
But from every chair I could see it.
MS. BRUINSMA: Your Honor, just with respect to
the jury box. I would agree that again, depending on
how the Defendant was positioned and how the juror
was positioned in the chair and where they are looking
and where the podium is positioned or the attorney
that is at the podium is positioned, there are spots
within the jury box that a juror might be able to view
the Defendant’s wrist shackles.
I do believe that the record indicates that the
black curtain was up during the trial and so from my
view in the jury box, the leg shackles is not something
that was able to be viewed with the curtain up.

829
But again, I think that it is going to be the testimony that is controlling.
THE COURT: And I appreciate that. I realize that
we are specifically looking for something right now;
but I think that those observations by Counsel seem
to be consistent with what we have just heard from
the jurors, some of them indicated they don’t have a
recollection of ever seeing it and others pointed out
what they observed.
So, I appreciate that and given that exercise and
your participation and what was indicated on the record, I am going to deny any request for any expert to
have to come in to have to testify about angles and so
forth.
[Page 121]
There is one other thing -- because I don’t think
that it is necessary. I think that everyone agrees that
there are locations and depending on, you know sitting, standing or what is going on, files on the desk
where Mr. Davenport is and what not that there are
places that jurors could see the restraints.
With regards to the camera too, we also need to
indicate that for the record.
We just wanted to make a record of the location of
the camera or cameras and I’m -- there are -- I guess
again for the record, where my bench is, Mr. Davenport would be seated to my right. There is an L-shaped
table. There is a camera behind me and to the left,
which is right almost above the witness stand, not
quite, it is a little bit closer to the wall I’m sorry, the

830
doorway that the jurors come in and out of the court.
But the cameras are higher up than what your general
-- I guess what the average person’s view would be
from looking through their eyes. I think that Counsel,
we agreed -- I indicated that we could certainly get a
measure -- a tape measure out, but I think we are all
in agreement that the cameras are located approximately eight to nine feet up from the floor. So, they
are above where the height of the average – any person that I am aware of. But that is the approximate
height of the camera and again, they are a little bit
[Page 122]
closer to the bench, right around where the witness
stand is. So, they are looking at Mr. Davenport at a
different angle, but I think they show -- in viewing the
photographs, the stills that were taken from that camera angle that were attached to the Defendant’s memorandum, again, you can certainly see at various
times I’m guessing that it is clearer in real life than
what is shown in these photographs and I don’t know
how the video appears -- I have indicated to Counsel
that I haven’t looked at the video or the DVD yet for
purposes of this hearing. I haven’t given my opinion
yet, we are not finished with the hearing yet.
But you can certainly see what appears to be a
metal -- the handcuff. I would say that looking at the
photographs, sometimes it looks like a bracelet -- it
could be a bracelet, but I think that it is clearer probably in real life than is shown in the still photographs
taken from the DVD.
So, -- but that camera angle is certainly higher up
than where the jurors would be or what the jurors

831
would be looking at. So, I’ll make that comment for the
record too.
Counsel, is everyone in agreement that we estimated that it would be about eight or nine foot from
the ground? Yes.
[Page 123]
MS. BRUINSMA: Yes, your Honor.
MS. MEINBERG: Yes, your Honor.
THE COURT: Alright, that is our best estimate on
the height.
Um, -MS. BRUINSMA: And that set, does it do anything?
THE COURT: There is another camera I don’t
think that that camera -- there are two other cameras
in the court. One would be focused on the jury (sic)
box, so when Mr. Davenport testified -- the witness
box, sorry, that would have picked him up. He didn’t
have any restraints on when he testified, so I don’t
know that that is that relevant for purposes of the inquiry that -- the issue that we are here for today.
The other camera is, unfortunately, on the bench,
so that is the camera that picks me up when I talk. So,
those two cameras are I don’t those are actually
higher, but I don’t think that really matters for our
purposes.

832
So, those are back in the galley, they take a different view of the court.
Anything else that we need to cover -- at this point
-- Counsel, I think that we spoke that we do need to
bring the other jurors in so we will pick another day
an continue the hearing and we will then figure out
from there -- why don’t we chat a moment or two about
whether or not I
[Page 124]
am going to have written arguments or allow you to
have written arguments given the fact that we, obviously, are going to have a delay. I’ll probably do it that
way and give you an opportunity to review everything
again or have written -- or just have oral closings or
arguments after that hearing.
But anything that we need to place on the record
then before we adjourn?
MS. BRUINSMA: Not from the People, your
Honor.
MS. MEINBERG: No, your Honor.
THE COURT: Okay.
With that then, the Court will recess and Counsel,
I just need to chat with you a few minutes and we’ll
figure out some dates for the next -- the continuation
hearing.
MS. BRUINSMA: Okay.
THE COURT: Court is in recess.

833
(At 12:37 a.m., court is in recess)
[Page 125]
STATE OF MICHIGAN

)

COUNTY OF KALAMAZOO

)

I certify that this transcript consisting of 125 pages is
a complete, true, and correct transcript of volume I of
the evidentiary hearing held in this case on June 24,
2011.
August 6, 2011
Connie L. Branch CER 5624
PO BOX 19563
Kalamazoo, MI 49019
(269) 377-7170

834
STATE OF MICHIGAN
9th JUDICIAL CIRCUIT COURT
TRIAL DIVISION
FOR THE COUNTY OF KALAMAZOO
PEOPLE OF THE STATE OF MICHIGAN,
v
Case No.:C2007-0165FC
ERVINE LEE DAVENPORT.
Defendant.
/
EVIDENTIARY HEARING - VOLUME II OF II
BEFORE THE HONORABLE
PAMELA LIGHTVOET, CIRCUIT JUDGE
Kalamazoo, Michigan – Friday, July 29, 2011
APPEARANCES:
FOR THE PEOPLE:
CHERI L. BRUINSMA P58673
227 W. MICHIGAN AVE
KALAMAZOO MI 49007
(269) 383-8900
FOR THE DEFENDANT:
SUSAN M. MEINBERG P34433
645 GRISWOLD ST STE 3300
DETROIT MI 48226
(313) 256-9822
VIDEO RECORDED
TRANSCRIBED BY:
CONNIE L. BRANCH CER 5624
PO BOX 19563
KALAMAZOO, MI 49019 (269) 377-7170

835
[Page 2]
TABLE OF CONTENTS
WITNESSES:
SARAH ENGSTER
Examination by the Prosecution
Examination by the Defense

4
6

MARK WEISHAAR
Examination by the Prosecution
Examination by the Defense

10
12

SHAWN KUCERA
Examination by the Prosecution
Examination by the Defense

15
17

EXHIBITS
None

Identified

Admitted

[Page 3]
Kalamazoo, Michigan
Friday, July 29, 2011 at 11:10 a.m.
COURT CLERK: The court calls the matter of the
People versus Ervine Lee Davenport, case number
C07-0165FC.
Parties, please state appearances for the record.
MS. BRUINSMA: Good morning, your Honor,
Cheri Bruinsma appearing on behalf of the People.

836
MS. MEINBERG: Good morning, your Honor, Susan Meinberg from SADO on behalf of Mr. Davenport.
THE COURT: Mr. Davenport is here also.
Counsel, this is a continuation of the hearing -- evidentiary hearing that we had about a month ago and
the three remaining jurors that we need to speak with
are out in the hall.
Is there anything that we need to discuss before
we bring the first one in?
MS. MEINBERG: Just one thing, Judge.
THE COURT: All right.
MS. MEINBERG: If you could have Mr. Davenport’s right hand unshackled so he could take notes
that would be great.
THE COURT: If you could do that, please, that
would be great.
Are we all set then Counsel?
MS. MEINBERG: Yes, your Honor.
[Page 4]
THE COURT: Before you have seat ma’am, please
raise you right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?

837
MS. ENGSTER: I do.
THE COURT: Please have a seat ma’am.
And before we begin -- we have some questions for
you with regards to the jury service that you had a
couple of years ago -- actually about three years ago
now I think it was.
Just so you know, as we go through the process,
the attorneys will ask you some questions, you do need
to speak up and respond verbally; no mmm hmm and
naw huhs and that type of thing. And if you would
wait until they are done with their question before you
give a response, even though you might kind of know
where they are going with their questions. I might
have some questions too.
So, before we do that, if you would please just
state and spell your first and last name for the record.
THE WITNESS: Sarah Engster; S-a-r-a-h E-n-gs-t-e-r.
MS. BRUINSMA: Thank you, your Honor.
SARAH ENGSTER
Called to testify at 11:12 a.m.;
testified as follows:
[Page 5]
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:

838
Q Good morning, thank you for being here.
Ma’am, do you recall being a juror on the Ervine
Davenport case?
A Yes I do.
Q And has anyone discussed with you the reason that
you are testifying today?
A No, not other than the paper that I received.
Q I’m sorry.
A Not other than the notice I received in the mail.
Q From the court.
A Right.
Q Okay.
Now, when you think back to the trial, is there
anything about the Defendant’s appearance in
court that stands out in your mind?
A Not particularly, no.
Q Do you recall what the Defendant was wearing
during the course of the trial?
A Not really.
Q Did you notice if the Defendant was restrained in
any way?
A No.

839
Q Do you recall seeing whether the Defendant was
wearing handcuffs of any kind?
[Page 6]
A No.
Q Do you recall seeing whether the Defendant was
wearing any kind of leg shackles?
A No.
Q Do you recall any of the other jurors discussing
whether the Defendant was restrained?
A No I don’t.
Q Was the issue of the Defendant being restrained
discussed at all during deliberations, to your recollection?
A No, I don’t recall it.
MS. BRUINSMA: I don’t have any further questions from this witness.
EXAMINATION BY THE DEFENSE
MS. MEINBERG:
Q Good morning, thank you for coming.
A Mmm hmm.
Q On the first and part of the second day when they
were picking the Jury and you were sitting in these

840
back rows, do you remember where you were sitting on the first day or the second day?
A Oh boy, I believe that I was kind of right directly
back from here.
Q On this side without windows?
A Yes.
Q And on the second day, were you sitting in a different
[Page 7]
place?
A Oh boy, you know, I have been called for jury duty
since then, so I don’t remember exactly where I
was; I’m sorry.
Q That’s okay.
And when you were picked to sit on the Jury,
do you remember where in the box you were sitting?
A I was right here.
Q In the chair that is placed at the end, not even in
the box?
A Yes.
Q In the back or in the first row?
A I believe I was in the back.

841
Q And during the course of the trial when you stood
up and took stand and stretch breaks, did you ever
look over at Mr. Davenport and notice anything on
this wrist?
A Honestly, I don’t remember seeing his hands.
Q And when you would come in and out of the courtroom, did you ever see his hands?
A No.
Q What about when he turned around and looked -I guess that there was a screen behind him; did you
ever notice then?
A No.
Q Is it that you don’t recall or you know you didn’t
see -A I don’t recall.
Q And -- at some point during the trial Mr. Davenport
[Page 8]
testified. Do you remember having to go out in the
hallway before he took the seat up there?
A Yes I do.
Q Did you ever hazard to guess as to why you had to
go out into the hallway before he testified?

842
Q You know at the time I don’t think that we realized
that he was going to testify; we were escorted out
and when we came back in, he was up here.
Q Okay.
A That is what I recall.
MS. MEINBERG: Great. Thank you; I have no
further questions.
THE COURT: I just have one clarification.
When you were describing where you were seated.
So you were seated in the back row, the end seat,
which is the closest to the bench -THE WITNESS: Yes.
THE COURT: -- the front of the courtroom as opposed to the back -THE WITNESS: Yes.
THE COURT: -- of the courtroom. So, I just
wanted to clarify that for the record.
Any other questions then, Counsel?
MS. BRUINSMA: No, your Honor.
MS. MEINBERG: No, your Honor.
[Page 9]
THE COURT: So she may be excused?
MS. BRUINSMA: No objection.

843
THE COURT: Thank you, we appreciate your
time today.
THE WITNESS: Thank you.
THE COURT: Sorry to have to call you back and
be careful of that step when you exit.
THE WITNESS: Thank you.
(At 11:16 a.m., witness excused)
THE COURT: Before you have a seat sir, please
raise your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. WEISHAAR: I do.
THE COURT: Please have a seat sir.
And before I have you state your name for the record, just so you are aware, we are going to ask you
some questions about your experience as a juror during Mr. Davenport’s trial.
When the attorneys ask you questions or if I ask
you questions, we need a verbal response. Please remember not to give us an mmm hmm or naw huh or
that type of response. We are recording everything
and there might be a transcript later.

844
[Page 10]
Also, just make sure that you wait until the question is completed before you give your response.
With -- and make sure that you speak right in the
end of that microphone, because if you move to either
side sometimes it doesn’t pick up your voice.
So, with that, please state and spell both your first
and last name for the record, please.
THE WITNESS: Mark Weishaar, M-a-r-k W-e-i-sh-a-a-r.
MARK WEISHAAR
Called to testify at 11:17 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:
Q Good morning, sir, thank you for being here.
A Do you recall being a juror in the Ervine Davenport
case?
A Yes, I do.
Q And has anyone discussed with you the reason that
you are here today?
A No.

845
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
Q Is there anything about his appearance that
stands out in your mind?
[Page 11]
A No.
Q Is there anything about how the Defendant presented himself during the course of the trial that
stands out in your mind?
A No.
Q Do you recall what the Defendant was wearing
during the trial?
A I do not, other than the fact that -- at one point he
took off a shirt and he had a T-shirt on when he
was on the stand here.
Q Did you notice if the Defendant was restrained in
any way during the trial?
A I do not recall that.
Q Did you ever specifically see whether the Defendant was wearing handcuffs?
A I do not recall he was wearing those.
Q Do you recall whether the Defendant was wearing
any type of leg shackles?

846
A I do not.
Q Do you recall whether it was discussed during deliberations that the Defendant was wearing any
kind of restraints?
A It -- it was not to the best of my knowledge.
Q And do you recall anybody pointing out handcuffs
on the Defendant?
A No, in fact, I remember the Defendant writing with
a small
[Page 12]
pencil, so I don’t believe that he was in handcuffs
of any sort.
MS. BRUINSMA: I don’t have any further questions
from this witness.
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning, thank you for coming in.
A Certainly.
Q During the first and part of the second day when
they were picking the Jury and you were all sitting
in the back benches, do you remember where you
were sitting on the first day?
A I do not, but I recall I was the first person chosen;
so I only sat for a very short time.

847
Q Okay.
And during any point sitting back in the
benches, did you notice a handcuff hanging down
from Mr. Davenport’s waist?
A No.
Q And when you were sitting in the box, do you remember which seat you were in?
A I was in the first seat over there.
Q The front row or the second row?
A First row is my recollection.
Q And at any point during the stand and stretch
breaks when
[Page 13]
you stood up in the box to stretch, did you ever look
over at Mr. Davenport and notice a handcuff on his
left hand?
A I never did note -- I did not notice leg or hand of
any sort.
Q Okay.
And at -- at one point when Mr. Davenport took
the stand and you all had to go out in the hallway
– do you remember doing that?
A I remember being dismissed in this manner.

848
Q And did you know why you had to go outside of the
courtroom before he took the stand?
A I do not; but he did take his shirt off, as I indicated.
Q He took his shirt off.
MS. MEINBERG: Thank you. I have no further
questions.
MS. BRUINSMA: Nothing further, your Honor.
THE COURT: And again, just for clarification.
When you indicated that you were seated -- when
you were in the jury box, you were in the first row,
first seat. That would be the seat that is closest to the
back of the courtroom and furthest away from the
bench?
THE WITNESS: That is correct.
THE COURT: Any further follow up questions,
Counsel?
MS. BRUINSMA: No, your Honor.
[Page 14]
MS. MEINBERG: No, your Honor.
THE COURT: Any problems with him being excused from his subpoena?
MS. BRUINSMA: No objection.
MS. MEINBERG: No.

849
THE COURT: Thank you sir, we appreciate your
time. Sorry to have to call you back in.
THE WITNESS: Thank you.
THE COURT: Have a good day.
(At 11:21 a.m., witness excused)
THE COURT: Before you have a seat sir, raise
your right hand.
Do you solemnly swear or affirm that the testimony you are about to give will be the truth, the whole
truth, and nothing but the truth so help you God?
MR. KUCERA: I do.
THE COURT: Please have a seat sir.
Before I have you state your name for the record,
when you respond to questions with that particular
microphone, you really need to speak right in the end
of it. If you move to either side, sometimes the recording system doesn’t pick up your voice.
We are going to be asking you some questions
about when you served as a juror during Mr. Davenport’s trial.
[Page 15]
Please give us a verbal response. Try not to respond with a mmm hmm or a naw huh, because we
need a good transcript for later.

850
Also, please just make sure that you wait until the
attorney or myself that we finish our question, even
though you might know what the question is, but
please just make sure that the question is finished before you give a response; again, that makes for a better
transcript later on if needed.
THE WITNESS: Is this the mic. here too or this
one?
THE COURT: That is the one that you are going
to be speaking into -- yes, that is another microphone,
but that one will pick up your voice.
THE WITNESS: Okay.
THE COURT: Go ahead.
MS. BRUINSMA: Thank you.
THE COURT: Oh, I’m sorry, you need to state and
spell your first and last name for the record, sir.
THE WITNESS: Shawn Kucera, S-h-a-w-n K-u-ce-r-a.
SHAWN KUCERA
Called to testify at 11:23 a.m.;
testified as follows:
EXAMINATION BY THE PROSECUTION
BY MS. BRUINSMA:

851
[Page 16]
Q Good morning, sir. Thank you for being here.
Do you recall being a juror on the Ervine Davenport case?
A Yes.
Q And has anyone discussed with you the reason that
you are here for testimony today?
A No.
Q During the trial, do you recall the Defendant being
present in the courtroom?
A Yes.
Q Is there anything about his appearance that
stands out in your mind?
A Not really.
Q Do you recall what the Defendant was wearing
during the course of the trial?
A He seemed to be dressed nice, nicer than I was, I
think. I don’t recall exactly what he was wearing,
but -Q Nothing in particular stands out in your mind
about what he was wearing?
A No.

852
Q Do -- did you notice if the Defendant was restrained in any way during the trial?
A Myself I did not.
Q Did you see specifically if the Defendant was wearing handcuffs?
[Page 17]
A No.
Q Did you see if he was wearing any type of leg restraints or leg shackles?
A I don’t recall.
Q Now you said, myself, I do not. Did you discuss or
did somebody else discuss that with you?
A I remember there was -- when he came out to give
his own testimony, we were all escorted out of the
court and there was -- somebody mentioned that he
might have been restrained and that is probably
why we had moved out.
Q But other than that comment, was there any other
discussion with the other jurors about the Defendant being restrained?
A No.
Q Was it ever mentioned in deliberations?
A No.
Q Okay.

853
And absent from that comment, you, yourself,
did not see the Defendant’s handcuffs?
A No. I recall seeing like witnesses come in, in chains
and stuff; some of the witnesses I think were, but Q But you don’t recall seeing any kind of restraints
on the Defendant?
A No.
MS. BRUINSMA: I don’t have any further questions.
THE COURT: Counsel.
[Page 18]
EXAMINATION BY THE DEFENSE
BY MS. MEINBERG:
Q Good morning, thank you for coming in.
A Good morning.
Q During the first and part of the second day when
they were picking the Jury and you were sitting
back in these rows, do you remember where you
were sitting on the first day?
A Um, I was on this side, probably half way back.
Q The side without the windows?
A Yes.

854
Q Okay.
What about on the second day, were you still
sitting in the back or were you sitting up in the
box?
A When we were called to be -Q When they were still -- sometimes the Jury was
still being picked for part of the second day. Were
you still sitting in the back for part of that day; do
you remember?
A No, I only recall that being one day that we were
picked.
Q And when you were called up to sit in the box, to
sit on the Jury, do you remember where you were
sitting in this jury box?
A I was sitting on the end.
Q Which end? Closest to this officer or closest to the
bench?
A I was on the end by the door.
[Page 19]
Q By the door.
A By the door.
Q In the back or front?
A Yes, in the back.

855
Q In the back.
Okay.
When the jurors were allowed to stand up and
stretch, did you ever look over at Mr. Davenport
and see any handcuff on his wrist?
A I don’t recall that.
Q Did you notice that he was only able to write with
one hand during the course of the trial?
A I did notice that.
Q You did notice that.
Okay.
Did you notice how many deputies were in the
courtroom during the trial?
A Um, I think that I saw at least two -Q And you knew -A It wasn’t something that I was -- I wasn’t taking
inventory of all that.
Q Okay.
After Mr. Davenport finished testifying, did you
notice that he didn’t have restricted movement anymore?
A Yes, I mean, he walked in front of us all.

856
[Page 20]
MS. MEINBERG: I have no further questions.
THE WITNESS: Okay.
THE COURT: Let me just clarify again. You were
seated in the back row on the end seat, near the side
door-- the side of the courtroom, not the door near the
front of the courtroom, correct?
THE WITNESS: Correct.
THE COURT: Any follow up questions?
MS. BRUINSMA: No, your Honor.
MS. MEINBERG: No, your Honor.
THE COURT: May the witness be excused then?
MS. BRUINSMA: No objection.
MS. MEINBERG: Yes.
THE COURT: We appreciate your time coming in
today; you are excused.
THE WITNESS: Okay.
THE COURT: Be careful as you step down.
(At 11:28 a.m., witness steps down)
THE COURT: I can’t see if the door shuts, so you
have to let me know.
MS. BRUINSMA: Waiting for a crack. Okay, now.

857
THE COURT: Counsel, so we have now taken testimony of all of the jurors and I think that what we
will do is that I will give you a certain amount of time
just to file written responses then, since we had two
[Page 21]
different days. I’ll give you an opportunity to review
your notes and the transcript, if necessary.
I -- did either of you request the transcript from
the last -MS. BRUINSMA: No, that was something that
Susan and I discussed this morning; because we both
kind of recalled that -- we weren’t sure if the Court
was going to ask that it be prepared or if one of us was
supposed to do that, so we wanted to clarify.
THE COURT: I think that I’ll have both days prepared -- either way we are going to need it, no matter
what happens.
So, I will let them know that that needs to be
taken care of.
And so, I’ll ask them to do that sooner than later.
And as soon as we get copies of the transcripts
then, 30 days, is that enough time?
MS. BRUINSMA: Yes, your Honor.
THE COURT: Do you need that much time?
MS. MEINBERG: Twenty-one would be fine.

858
THE COURT: Do you want to do 21 days?
MS. BRUINSMA: That should work.
THE COURT: Okay, 21 days after the transcript
is prepared -- filed in the court, then you need to get
your
[Page 22]
closing -- written closing arguments in with regards to
the hearing.
Is there anything else that we need to address
then?
MS. BRUINSMA: I don’t believe so, your Honor.
MS. MEINBERG: I don’t believe so either, your
Honor.
THE COURT: Okay.
All right, with that, court is in recess.
MS. BRUINSMA: Thank you.
MS. MEINBERG: Thank you, your Honor.
(At 11:29 a.m., court is in recess)

859

STATE OF MICHIGAN

)

COUNTY OF KALAMAZOO

)

I certify that this transcript consisting of 22 pages is
a complete, true, and correct transcript of volume II of
the evidentiary hearing held in this case on July 29,
2011.
August 6, 2011
Connie L. Branch CER 5624
PO BOX 19563
Kalamazoo, MI 49019
(269) 377-7170

860
STATE OF MICHIGAN
NINTH JUDICIAL CIRCUIT COURT
TRIAL DIVISION
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff,
v

HON. PAMELA L.
LIGHTVOET P47677

FILE NO. C07-0165FC
ERVIN LEE DAVENPORT,
Defendant.
JEFFREY R. FINK P31062
Prosecuting Attorney
CHERI L. BRUINSMA P58673
Assistant Prosecuting Attorney
227 W. Michigan Avenue
Kalamazoo, MI 49007
269-383-8900
SUSAN M. MEINBERG P34433
Attorney for Defendant
State Appellant Defender Office
3300 Penobscot Building
Detroit, MI 48226
313-256-9833
OPINION AFTER REMAND FROM THE
MICHIGAN SUPREME COURT

861
At a session of said Court held in the City and
County of Kalamazoo, Michigan on this 20 day
of October, 2011;
HON. PAMELA L. LIGHTVOET,
CIRCUIT COURT JUDGE.
By an Order dated March 9, 2011, the Michigan
Supreme Court remanded this case to determine
whether the jury saw the Defendant’s shackles ·during Trial. If this Court determines that the jury did
see Defendant’s shackles, the Supreme Court ordered
this Court to determine whether the prosecution
demonstrated beyond a reasonable doubt that the
shackling error did not contribute to the verdict
against Defendant.
In accordance with the Michigan Supreme Court’s
Order, this Court held an Evidentiary Hearing at
which the twelve jurors who rendered the verdict were
subpoenaed to testify. All twelve jurors reported and
testified on either June 24, 2011 or June 29, 2011.
Subsequently, the parties provided written closing arguments to the Court.
Prior to the hearing, defense counsel objected to
questioning jurors about whether the shackles/restraints were discussed during deliberations. However, this Court ruled that such questions were necessary to address the issues raised by the Michigan Supreme Court and for which this Court was ordered to
address on remand.
The Court listened to the testimony of the jurors
and reviewed the parties’ briefs. There is no question
that, despite the precautions taken, many of the

862
jurors were able to observe Defendant’s shackles/restraints during the trial. 1 This is clear from the testimony of the jurors and not disputed in the parties’
briefs. Therefore, this Court must make a determination as to whether or not the prosecution demonstrated beyond a reasonable doubt that the fact that
Defendant was shackled/restrained did not contribute
to the jury’s guilty verdict.
The Court finds that the Prosecution has met its
burden. There was not one juror who testified the
shackling issue affected their verdict. They testified
the issue was not discussed during deliberations and
they confirmed the verdict was based only on the evidence. The jurors who observed the handcuffs or
shackles went on to testify that the procedure was not
a surprise or unexpected. They understood it to be
“routine”, “part of the procedure”, for “security”, not
unusual given the charge and/or not unusual in a
murder trial. 2 There was no evidence/testimony that
the shackles/restraints was significant to the jurors or
made them more inclined to find the Defendant
guilty. 3 There was no testimony that indicated Defendant’s shackles/restraints contributed to the guilty
verdict. The Prosecution has met its burden on this
issue through the testimony of the jurors.

1 A number of jurors also recalled that Defendant initially wore
an orange jumpsuit, so they knew he was in custody. He then
changed his clothing. See Evidentiary Hearing - Volume I, No.
2007-0165FC, pp 36, 59, 98-99.
2

See Evidentiary Hearing - Volume I, No. 2007-0165FC, pp 16,
36, 38, 45, 56, 59, 81.
3

Id. pp 20, 63, 82.

863
WHEREFORE, the Court finds beyond a reasonable doubt that the shackling of Defendant during the
Trial did not affect the juror’s verdict in this case.
IT IS SO ORDERED.
Date: October 20, 2011
Pamela L. Lighvoet
HON. PAMELA L. LIGHTVOET (P47677)
Circuit Court Judge
PROOF OF MAILING
The undersigned certifies that a copy of this Order
was sent to the parties listed in the pleadings filed
herein by mailing the same to them at their respective
last known addresses with 1st class postage fully paid
thereon, on 10/21/2011.
Cheryl L. Johnson
Cheryl L. Johnson
Judicial Aide to the Hon. Pamela L. Lightvoet

